Semiannual
Report for Transmission
to the Congress


April 1, 2004 - September 30, 2004



Required by Public Law 95-452
                                                           Semiannual Report for Transmission to the Congress




              INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the specific pages in this semiannual report to the reporting
requirements prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended.

      IG Act
                                             Reporting Requirements                                         Page
    References
   Section 4(a)(2)    “review existing and proposed legislation and regulations…make                        39-41
                      recommendations... ”
   Section 5(a)(1)    “description of significant problems, abuses, and deficiencies... ”                    1-25
   Section 5(a)(2)    “description of recommendations for corrective action…with respect to                  1-25
                      significant problems, abuses, and deficiencies... ”
   Section 5(a)(3)    “identification of each significant recommendation described in previous              27-29
                      semiannual reports on which corrective action has not been completed... ”
   Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution          1-25
                      and convictions which have resulted... ”
   Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section             N/A
                      6(b)(2)... ” (instances where information requested was refused or not
                      provided)
   Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report             43-53, 54
                      issued...” showing dollar value of questioned costs and recommendations that
                      funds be put to better use.
   Section 5(a)(7)    “a summary of each particularly significant report... ”                                1-25
   Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar      55
                      value of questioned costs... ”
   Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar            55
                      value of recommendations that funds be put to better use by management... ”
   Section 5(a)(10)   “a summary of each audit report issued before the commencement of the                   55
                      reporting period for which no management decision has been made by the end
                      of reporting period... ”
   Section 5(a)(11)   “a description and explanation of the reasons for any significant revised              N/A
                      management decision... ”
   Section 5(a)(12)   “information concerning any significant management decision with which the             N/A
                      Inspector General is in disagreement... ”
   Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial                N/A
                      Management Improvement Act of 1996... ” (instances and reasons when an
                      agency has not met target dates established in a remediation plan)
   Section 8(f)(1)    “information concerning the number and types of contract audits... ”                    56
Semiannual Report for Transmission to the Congress




                                   This page left blank intentionally
                                                   Semiannual Report for Transmission to the Congress



                                        FOREWORD
         As an independent extension of the "eyes, ears and conscience of his commander," the
Inspector General of the Department of Defense (DoD) must maintain a broad, DoD mission-
focused perspective in auditing, inspecting, or investigating allegations associated with DoD
programs and operations around the world. The scope of the activities described in this report
reflect the unique policy and oversight duties associated with this Office, as well as the statutory
duty to “give particular regard to the activities of the internal audit, inspection, and investigative
units of the military departments with a view toward avoiding duplication and ensuring effective
coordination and cooperation.”

        This report for the period of April 1, 2004, to September 30, 2004, highlights significant
results and accomplishments, focusing on major leadership challenges facing DoD, including:

Public Confidence in the Integrity of DoD Programs and Operations

       •   Achieving for the first time ever an independent Office of Legal Counsel within this Office
           of Inspector General, in order to satisfy post-Enron independence standards;

       •   Providing independent and objective oversight for the various investigations and
           inspections associated with allegations of detainee abuse, including Abu Ghraib;

       •   Assisting leadership of DoD in effectively meeting profound challenges associated with
           Trafficking in Persons, resulting in a Secretary of Defense “Zero Tolerance” Policy
           Memorandum on the subject and testimony before the House Armed Services Committee
           and the Commission on Security and Cooperation in Europe (“Helsinki Commission”);

       •   At the direction of the Secretary, assuming an unprecedented role in overseeing the DoD's
           response to a request from the Chairman of the Senate Armed Services Committee for
           hundreds of thousands of documents related to an Air Force tanker lease program;

       •   Conducting a first-ever comprehensive climate survey at all three Military Service
           Academies relating to leadership, sexual assaults, and reprisals; and

       •   Establishing the first outreach program to promote higher standards of whistleblower
           protection within DIA, NGA, NRO, NSA, and the intelligence components of the military
           services.

Support of the Global War on Terror

       •   Deploying our Academic Dean to Baghdad to train Iraqi IGs in order to satisfy the
           precondition that every Iraqi ministry have a functional Office of Inspector General prior to
           transfer of sovereignty; and continuing to champion efforts to create an “Iraqi Academy for
           Principled Governance" -- to help create and sustain a culture of integrity in Iraq;
                                                 Semiannual Report for Transmission to the Congress


      •   Finalizing a first-ever Charter for training IGs deployed to warfighting commands in
          cooperation with IGs of the military departments, Joint Staff, and Combatant Commands;
          and

      •   Continuing to deploy approximately 50 special agents of the Defense Criminal
          Investigative Service in direct support of Joint Terrorism Task Forces, as well as sustained
          criminal investigative support for DoD programs and operations in Iraq.

Transformation

      •   Developing, testing, and obtaining approval from the President’s Council on Physical
          Fitness and Sports for the “Commander-in-Chief’s Challenge,” a DoD mission-focused
          version of the “President’s Challenge” designed to empower leaders throughout DoD to
          better reward improvements in health, physical fitness, character development, and
          teamwork.
Semiannual Report for Transmission to the Congress                                                                     Table of Contents


                                                TABLE OF CONTENTS

                                                                                                                                        Page

CHAPTER ONE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Joint Warfighting and Readiness. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Homeland Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
  Human Capital . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
  Information Technology Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
  Streamlined Acquisition Processes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
  Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Logistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
  Infrastructure and Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  Other Significant Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

CHAPTER TWO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
  Deputy Inspector General for Auditing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
  Deputy Inspector General for Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
  Deputy Inspector General for Intelligence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
  Deputy Inspector General for Inspections and Policy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
  Office of Communications and Congressional Liaison . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

APPENDICES
  A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . 43
  B. OIG DoD Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54
  C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
  D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
  E. Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . . . . 57

FIGURES
   1. Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
   2. DoD Total Senior Official Cases - FY 00 - FY 04. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
   3. Nature of Substantiated Allegations Against Senior Officials
          During 2nd Half FY 04 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
   4. Intelligence-Related Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Semiannual Report for Transmission to the Congress                                        Chapter One




CHAPTER 1 – SIGNIFICANT ACTIVITIES

                             The Inspector General annually assesses the most serious management
                             and performance challenges faced by the Department of Defense based
                             on the findings and recommendations of audits, inspections, and
                             investigations conducted during the year. The Inspector General
                             Summary of Management Challenges is included in the Department of
                             Defense Performance and Accountability Report. In the Fiscal Year
                             2003 Performance and Accountability Report, the following challenges
                             were identified:

                                      Joint Warfighting and Readiness
                                      Homeland Defense
                                      Human Capital
                                      Information Technology Management
                                      Streamlined Acquisition Processes
                                      Financial Management
                                      Health Care
                                      Logistics
                                      Infrastructure and Environment

                             This chapter summarizes some of the significant activities of the Office
                             of Inspector General and other DoD oversight organizations as they
                             relate to these management challenges.

JOINT WARFIGHTING            U.S. forces continue to transform to meet new and evolving threats, both
AND READINESS                traditional and asymmetrical. Operations Iraqi Freedom and Enduring
                             Freedom reinforced the need for the Services to continue to train
                             together in order to fight as a team. The experiences gained in those
                             operations, together with the ongoing efforts aimed at transforming
                             U.S. forces, create a changing environment unlike any experienced in a
                             long time. These experiences and efforts, individually, as well as
                             collectively, challenge the Department to ensure that U.S. forces are
                             ready to carry out their assigned missions, while addressing their
                             individual immediate needs. Many of the other challenge areas
                             encompass those functions that support joint warfighting and readiness
                             issues.




                                                     1
Chapter One                            Semiannual Report for Transmission to the Congress




              An OIG DoD audit on the management of network centric warfare
              determined that although DoD Components had taken steps to
              incorporate network centric warfare concepts into operations, the
              approach to integrating network centric warfare needs to improve to
              better position the Department to realize the full potential of the network
              centric warfare concept. Improvements are needed in defining network
              centric warfare and its associated concepts; formalizing roles,
              responsibilities, and processes for the overall development,
              coordination, and oversight of DoD network centric warfare efforts; and
              developing a strategic plan to guide network centric warfare efforts and
              monitor progress.

              An Air Force Audit Agency report found that 23 percent of space
              personnel assigned to or augmenting an Air and Space Operations
              Center (AOC) were not adequately prepared to perform duties upon
              arrival at the AOC. The personnel did not have the necessary experience
              and/or training in areas such as missile warning, combat search and
              rescue, and current AOC operations.

              The OIG worked with the Joint Staff, Combatant Command, and
              Military Department Inspectors General to develop policy, guidance,
              and training to institutionalize the roles, missions, functions, and
              relationships of Combatant Command Inspectors General. This initiative
              will greatly enhance the abilities of these Inspectors General to perform
              their duties in support of the combatant commanders. Also, the draft
              charter to create a Joint Inspector General Orientation Training Course
              was provided to the Services and the Joint Staff for coordination.

              The OIG has initiated a project to evaluate the support provided to
              mobilized Army National Guard and Reserve units deployed to Iraq and
              to support the Global War on Terror in response to concerns expressed
              in a letter signed by 28 members of Congress. The evaluation will seek
              to determine whether National Guard and Reserve units that deployed to
              Kuwait, Iraq, and Afghanistan received adequate support and if any
              disparity in support exists between active and reserve component units.

              The Defense Criminal Investigative Service (DCIS), the criminal
              investigative arm of the OIG, actively supports Joint Warfighting and
              Force Readiness through its investigative efforts into defective products
              and the issuance of timely safety alerts on defective products that are life
              threatening to our warfighters. Through its investigations within the
              Defense industrial base, DCIS works closely with the Defense Security
              Service and other DoD entities to protect technologies developed for and


                                   2
Semiannual Report for Transmission to the Congress                                                     Chapter One




                                  funded by the Department of Defense from fraud, diversion, or
                                  compromise.

                                  The Defense Criminal Investigative Organizations (DCIOs) 1 have
                                  established proactive operations to identify and prosecute individuals
                                  involved in the illegal transfer, theft, possession, and unauthorized sale
                                  of U.S. munitions-list items through Internet auction sites. This effort
                                  has resulted in the investigation of approximately 120 military members
                                  and civilians, and the recovery of several hundred items of body armor.
                                  These items, designed to protect military members from multiple
                                  impacts of high-velocity assault ammunition, are prohibited from being
                                  sold to or possessed by the general public. Examples of investigations
                                  conducted under this program follow:

                                        •   Two enlisted members stationed in California pled guilty to
                                            conspiracy, larceny and sale of government property. In this case,
                                            one military member paid another member $1,000 to steal 100
                                            pieces of body armor from a supply room and then sold 17 of
                                            them for $5,000 on an Internet auction site. The member who
                                            stole the items was sentenced to 6 years confinement, ordered to
                                            forfeit all pay and allowances, reduced in grade, and given a
                                            dishonorable discharge. As a result of a pretrial agreement, all
                                            confinement time in excess of 42 months was suspended. The
                                            individual who sold the items was sentenced to 4 years
                                            confinement with 1 year suspended, ordered to forfeit all pay and
                                            allowances, reduced in grade, and given a dishonorable discharge.
                                            All but two of the items were recovered.

                                        •   Another investigation resulted in an enlisted member stationed in
                                            Texas pleading guilty to theft of government property after he
                                            stole body armor and sold it for profit. This member was
                                            sentenced to 6 months confinement and 3 months supervised
                                            release and ordered to pay $5,500 in restitution for the value of
                                            the theft and $5,000 for the cost of the investigation.




1. The Defense Criminal Investigative Organizations (DCIOs) are the Defense Criminal Investigative Service (DCIS), a
component of the OIG DoD; the U.S. Army Criminal Investigation Command (USACIDC); the Naval Criminal
Investigative Service (NCIS); and the Air Force Office of Special Investigations (AFOSI).




                                                         3
Chapter One                                 Semiannual Report for Transmission to the Congress




HOMELAND DEFENSE   The global war on terrorism continues to heighten the level of threat
                   from adversaries of the United States. These adversaries may use
                   weapons of mass destruction, such as chemical or biological weapons, or
                   they may attempt to use information warfare to attack the Defense
                   information structure. As such, homeland security continues to be a
                   priority across the Federal Government.

                   The increasing threat of terrorist actions against U.S. military and
                   civilian populations demonstrates the need to enhance the safety of
                   military forces in the United States and overseas. DoD installations at
                   home and abroad must plan and be prepared to execute the necessary
                   actions to protect U.S. personnel and assets against natural disasters or
                   those of human origin. An OIG DoD report contained findings centered
                   on disaster preparedness and consequence management plans, training
                   and exercise programs, equipment, and host nation support at the
                   installation level in relation to disaster preparedness and consequence
                   management programs. The U.S. European Command and the Service
                   Components agreed to address methods for improving installation
                   disaster preparedness and consequence management programs at
                   installations in the U.S. European Command.

                   The Army Audit Agency reported there were no material deficiencies
                   with vulnerability assessments or security upgrade recommendation
                   packages prepared by the U.S. Army Engineer District, Seattle. Also, the
                   District used funding for the security of civil works water resources
                   critical infrastructure according to guidance received from Corps
                   Headquarters and Division and had an updated emergency management
                   plan. However, the District hadn’t fully incorporated security issues into
                   its emergency management and dam safety programs.

                   The Naval Audit Service found that installations assigned to the
                   Commander, Navy Region Mid-Atlantic (CNRMA) were not
                   consistently and routinely conducting local vulnerability and criticality
                   assessments, and vulnerabilities identified during assessments were not
                   always reported, prioritized, and tracked by the installations. Also,
                   installation Antiterrorism/Force Protection and emergency management
                   plans were not classified properly, were missing required elements, and
                   were not comprehensive in nature; there were also several deficiencies
                   in emergency management preparedness at CNRMA installations.

                   In September 2003, the Assistant Secretary of Defense for Homeland
                   Defense (ASD (HD)) assumed responsibility for Critical Infrastructure
                   Protection (CIP) oversight. Subsequently, the ASD (HD) requested the


                                        4
Semiannual Report for Transmission to the Congress                                           Chapter One




                              Office of the Inspector General to evaluate the CIP organization and
                              policy; validate the efficiency and effectiveness of vulnerability
                              assessment methodologies; and review procedures related to
                              vulnerability assessments for data collection and analysis. The
                              Inspections and Evaluations Directorate began its evaluation of the
                              Defense Critical Infrastructure Program in June 2004 with emphasis on
                              DoD facilities and assets exposed to high risks.

                              The DCIOs actively participate in nationwide joint terrorism task forces,
                              sharing and acting on information, and relying on the unique skills and
                              investigative specialties of the participating organizations to ensure that
                              no potential threat goes unchecked. Additionally, the DCIS continues to
                              partner with the Bureau of Immigration and Customs Enforcement,
                              Department of Homeland Security, in investigating the illegal
                              acquisition and exportation of critical Department of Defense
                              technology. Operated by the NCIS, the Multiple Threat Alert Center
                              utilizes the Navy’s worldwide presence and combination of law
                              enforcement, counterintelligence, intelligence, and security capability to
                              identify all available threat indicators and produce warnings of possible
                              terrorist activities. The USACIDC, NCIS, and AFOSI manage offensive
                              and defensive activities, including vulnerability assessments, to detect,
                              counter, and destroy the effectiveness of hostile intelligence services and
                              terrorist groups that target our military members and installations.
                              Additionally, they provide counterterrorism support to special events
                              where terrorist activities or other dangerous situations might occur. The
                              Service criminal investigative organizations have instituted initiatives to
                              train military families to recognize potential terrorist threats and respond
                              properly.

                              Investigating individuals who attempt to export controlled military
                              weapons and parts to foreign governments is another way the DCIOs
                              help strengthen homeland defense. Two cases are highlighted below.

                                   •   A Connecticut helicopter parts supplier pled guilty to violations
                                       of the Arms Export Control Act and the International Traffic in
                                       Arms Regulation after the company was found to have conducted
                                       illegal exports of export-controlled helicopter parts to Iran, which
                                       is covered by a U.S. embargo. The company was fined $500,000
                                       and placed on probation for 5 years. The company’s president,
                                       who pled guilty to obstruction of justice charges resulting from
                                       attempts to impede the investigation and destroy evidence, was
                                       fined $10,000, sentenced to 1 year of probation.




                                                     5
Chapter One                                 Semiannual Report for Transmission to the Congress




                     •   In another arms exportation case, an investigation found that two
                         owners of a California-based company conspired to illegally
                         export weapons and missile parts to the People’s Republic of
                         China. One co-owner was sentenced to 12 months and 1 day
                         confinement, ordered to pay a $2,000 fine, and placed on
                         supervised release for 2 years after being convicted of violations
                         of the Arms Export Control Act and conspiracy to export defense
                         articles. The other co-owner was sentenced to 21 months
                         confinement, and the company was fined $75,000 and placed on
                         probation for 3 years after being convicted of the same offenses.
                         A d d i t i o n a l l y, t h e c o m p a n y a n d b o t h c o - o w n e r s w e r e
                         administratively debarred from contracting with the U.S.
                         Government.

HUMAN CAPITAL   The challenge in the area of human capital is to ensure that the DoD
                civilian and military workforces are appropriately sized, well trained and
                motivated, held to high standards of integrity, capable of functioning in
                an integrated work environment, and able to handle the emerging
                technologies and threats of the 21st century. The Department has over
                3.38 million civilian and military personnel, with an annual financial
                investment of more than $100 billion. The challenges of managing such
                a large workforce, including oversight of contractor personnel,
                highlights the need for the Department to identify and maintain a
                balanced level of skills to sustain core defense capabilities and meet the
                increasing challenges and threats of the 21st century. The Department is
                in the beginning stages of developing the National Security Personnel
                System (NSPS) which will allow the Department to develop a flexible
                and fair system to help attract, retain, reward, and grow its civilian
                workforce to meet national security demands.

                In recognition that human capital is a crucial area within the Department,
                the OIG DoD dedicated an audit team to focus on the area of human
                capital. In May 2004, the team announced a review of the Enterprise
                Management of DoD Human Capital, a top-down look at the
                management of human capital within the Department. In addition, along
                with the Service audit agencies, the OIG DoD established the Human
                Capital Joint Audit Planning Group.

                The Naval Audit Service reported that the Department of the Navy has
                not yet been able to develop or field effective integrated information
                systems necessary to support the Navy’s future human capital needs.
                This resulted from reliance on a decentralized management structure and



                                        6
Semiannual Report for Transmission to the Congress                                            Chapter One




                              strategic guidance for military, civilians, and contractors rather than an
                              overarching Human Resources Management strategic plan, goal and
                              objectives. There was also an ineffective information technology (IT)
                              investment strategy due to a lack of formal policy, implementation, and
                              oversight of an IT portfolio management system.

                              The Air Force Audit Agency issued a report that found the Officer
                              Accessions Program was properly determining annual and out-year non-
                              rated line officer accession targets, allocating those targets to the sources
                              of commission, and classifying cadets and/or candidates pending
                              graduation into Air Force specialties. However, the sources of
                              commission did not effectively produce non-rated officers in the
                              appropriate numbers and skills to meet accession targets. In addition, Air
                              Education and Training Command officials did not provide initial skills
                              training to new officers within the required 6 months, so the officers
                              were not able to perform their specialty duties in a timely manner
                              subsequent to reporting for duty.

                              Trafficking in persons (TIP) is a global problem that enslaves thousands
                              of people. The President, in National Security Presidential Directive 22
                              (NSPD-22), and the Secretary of Defense, in a memorandum dated
                              September 16, 2004, have emphasized that trafficking practices will not
                              be tolerated in military organizations, DoD contractors, or their
                              subcontractors. In accordance with NSPD-22, the OIG DoD is assisting
                              the Under Secretary of Defense for Personnel and Readiness to develop
                              a TIP awareness and training campaign for all DoD personnel. The OIG
                              will be conducting evaluation visits to various regions of the world as
                              part of a continuing effort to assess DoD’s efforts to combat trafficking
                              in persons.

                              During this reporting period, the Investigative Policy and Oversight
                              Office of the OIG continued work in response to a request from
                              Congress that the OIG expand an ongoing evaluation of the Air Force’s
                              response to allegations of sexual assaults at the Air Force Academy.
                              Specifically, the OIG was requested to conduct “a thorough review of
                              the accountability of Academy and the Air Force Headquarters
                              leadership for the sexual assault problems at the Academy over the last
                              decade” including the “actions of current as well as previous Air Force
                              Leadership.” Additionally, in response to requests of the Secretary of
                              Defense and the Chairman of the Senate Armed Services Committee, the
                              OIG DoD completed sexual assault and leadership climate surveys at the
                              three military service academies.




                                                     7
Chapter One                            Semiannual Report for Transmission to the Congress




              In May 2003, the Secretary of Defense challenged the Department’s
              leadership to reduce the number of preventable mishaps and accidents
              by “at least 50 percent in the next 2 years.” In response to this challenge,
              the Undersecretary of Defense for Personnel and Readiness (USD
              (P&R)) created the Defense Safety Oversight Council. This forum meets
              regularly and reviews safety initiatives, metrics, and best practices of the
              military departments and OSD. The OIG participates in this forum as an
              advisor. In August 2004, the USD (P&R) requested Inspector General
              assistance to evaluate the DoD safety program, to include such
              considerations as policies, organizational structure, culture, and safety
              programs at the installation level. In response to this request, the OIG
              Inspections and Evaluations Directorate is assembling a team of safety
              experts that will evaluate the Department’s safety program and
              recommend best practices that may be used to help achieve the Secretary
              of Defense’s accident reduction goal.

              Congressional requirements for review of the Voter Assistance Program
              (VAP) are specified in the 2002 National Defense Authorization Act,
              Public Law 107-107, section 1602. This law requires the OIG DoD to
              annually assess the effectiveness of voter assistance programs in the
              Military Services and to submit a report to Congress in March of each
              year. Since June 2004, the Inspections and Evaluations Directorate has
              conducted 9 unannounced installation visits and should complete a total
              of 14 field visits by the end of November 2004.

INFORMATION   DoD Components use information technology in a wide variety of
TECHNOLOGY    mission functions including finance, personnel management, computing
MANAGEMENT    and communication infrastructure, logistics, intelligence, and command
              and control. The President's Management Agenda initiative for
              expanding electronic government has identified effective planning for
              information technology investments as a priority. Improving information
              technology security is one of the Office of Management and Budget's
              highest priorities in information technology management.

              An OIG DoD audit on the reporting of DoD capital investments for
              information technology determined that DoD did not adequately report
              information technology investments to Congress and the Office of
              Management and Budget (OMB) in support of the President’s Budget
              for FY 2004. The Component Chief Information Officers and Chief
              Financial Officers did not always include required information in
              submitted reports. Specifically, 170 of 198 Capital Investment Reports
              submitted to OMB and 182 out of 197 Selected Capital Investment
              Reports submitted to Congress did not completely respond to one or


                                   8
Semiannual Report for Transmission to the Congress                                                               Chapter One




                              more of the required data elements addressing project management,
                              business case justifications, realistic cost and schedule goals, and
                              measurable performance benefits. Consequently, the quality of the DoD
                              information reported to Congress and Office of Management and Budget
                              (OMB) had limited value and did not demonstrate that DoD was
                              effectively managing its $27.9 billion information technology
                              investment for FY 2004.

                              An OIG DoD audit substantiated a Hotline allegation concerning the
                              C o l l ab o r a t i v e Fo r c e - B u i l d i n g , A n a l y s i s , S u s t a i n m e n t , an d
                              Transportation System (CFAST) in response to allegations made to the
                              Defense Hotline regarding the development of the system. Management
                              control documentation was not prepared to justify the initiation of the
                              system, compare budgeted and actual costs, measure performance
                              requirements, track scheduled and actual timelines, or ensure that
                              existing systems’ capabilities were taken into consideration. The
                              U.S. Joint Forces Command has agreed to conduct a “Quick Look and
                              Final Capability Needs Analysis,” to determine the appropriate
                              documentation requirements for the system.

                              The Army Audit Agency reported the Army had policies and guidance
                              in place to implement the DoD Enterprise Software Initiative and had
                              effectively done so through the Army Small Computer Program. In
                              addition, the Army could achieve more benefits if the Small Computer
                              Program has visibility over all software purchases.

                              The Naval Audit Service issued a report that concluded information
                              security operational controls at Naval Aviation Depots contained
                              significant weaknesses in that the controls were either incomplete or
                              nonexistent. The lack of effective controls creates vulnerabilities within
                              the operating environment that impact all systems and increase the risk
                              for loss or misuse of Government resources, unauthorized access and
                              modification of system data, disruption of system operations, and
                              disclosure of sensitive information.

                              The Air Force Audit Agency reported that the Air Force Chief
                              Information Officer (AF-CIO), through establishment of the Information
                              Technology (IT) portfolio management process, had initiated a viable
                              framework to establish visibility over Air Force IT resources. However,
                              the seven functional and major command CIO elements reviewed
                              presented incomplete IT portfolios. This situation occurred partly
                              because the AF-CIO could not anticipate the specific criteria and




                                                          9
Chapter One                            Semiannual Report for Transmission to the Congress




              standards the Office of Management and Budget and OSD would place
              on the Air Force for IT budget submission reporting.

STREAMLINED   The Department of Defense (DoD) is the largest purchaser in the world.
ACQUISITION   In FY 2003, DoD spent $231 billion on acquisition. On an average
PROCESSES     working day, DoD issues more than 22,000 contract actions, valued at
              $841 million, and makes more than 140,000 credit card transactions,
              valued at $37 million. There are about 1,500 weapon acquisition
              programs valued at $2.1 trillion over the collective lives of these
              programs. Every acquisition dollar that is not prudently managed results
              in the unavailability of that dollar to fund Defense programs such as the
              global war on terrorism and joint warfighting capabilities.

              The investigations of the former Principal Deputy Secretary of the Air
              Force for Acquisition and Management and the former Chief Financial
              Officer for The Boeing Company and their impact on acquisition
              programs highlight the need to continue to monitor the acquisition
              process and post-government employement of acquisition officials. The
              adverse actions of a few people can cause delay for major acquisition
              programs, impede quick delivery of new capabilities to the warfighter,
              and negatively affect public perception of the integrity of the acquisition
              process.

              At the request of the Secretary of the Air Force, the OIG DoD reviewed
              the negotiations by the former Principal Deputy Assistant Secretary of
              the Air Force for Acquisition and Management for the North Atlantic
              Treaty Organization Airborne Warning and Control Systems Mid-term
              Modernization Program, “Global Solution.” The report identified that
              senior-level Air Force managers did not use appropriate business and
              contracting procedures during negotiations with The Boeing Company.
              A contract modification was awarded without knowing whether the
              $1.32 billion cost was fair and reasonable. Air Force actions to
              renegotiate the prices and contract should result in a substantial price
              reduction.

              The DoD audit community has continued to assist in improving the
              acquisition of weapon system programs. The need to better negotiate
              contract items was highlighted by an OIG DoD audit that showed the Air
              Force conditionally accepted 50 C-130J aircraft at a cost of $2.6 billion
              even though none of the aircraft met commercial contract specifications
              or operational requirements and also paid the contractor more than 99
              percent of the contract price for these aircraft. OIG DoD audits of 27
              acquisition category II and III programs valued at $18.3 billion showed a


                                  10
Semiannual Report for Transmission to the Congress                                         Chapter One




                              need for implementing effective management controls. Program
                              managers in the Army, Navy, and Air Force did not prepare or obtain
                              updated information to effectively manage programs, did not report
                              program deviations, and did not request revisions to program baselines
                              when cost schedule and performance breaches occurred. The Services
                              agreed to implement better reporting systems to monitor and control
                              programs.

                              An OIG DoD audit of the Military Departments’ transition of advanced
                              technology programs to military applications identified the need to fully
                              adopt the best practices suggested by the Office of the Secretary of
                              Defense for advanced technology development-funded projects; to
                              sufficiently address technology transitions as a performance standard in
                              the appraisal process for science and technology personnel; and to
                              emphasize technology transitioning in financial guidance for advanced
                              technology development funding.

                              An OIG DoD audit of the acquisition of the EA-6B Improved Capability
                              III Program determined that the program office should have provided the
                              milestone decision authority with a complete operational assessment at
                              the Program’s low-rate initial production decision. The program office
                              should have also completed information system security requirements
                              before beginning the operational test phase of the Program’s information
                              system and obtained updated reliability prediction data from the
                              contractor for the Tactical Jamming System Receiver to determine the
                              best maintenance and logistical support strategy.

                              In FY 2003, the Department contracted for $123 billion in services.
                              Annual procurement of services now exceeds the $89 billion of
                              purchases to acquire weapon systems and spare parts. An OIG DoD
                              review of the $875 million spent annually by the Military Departments
                              to acquire direct care medical services identified the need for an overall
                              DoD-wide strategic approach for medical services contracts.
                              Inefficiencies existed in the number of overlapping contracting efforts,
                              lack of competition, inconsistent application of procurement regulations
                              and use of contracts that imposed unneeded administrative and financial
                              burdens on DoD. The Acquisition, Health Affairs, and Comptroller
                              Offices of the Secretary of Defense and the Military Department
                              Surgeons General agreed to initiate actions to improve management and
                              uniformity in contracting for medical services.

                              OIG DoD auditors assisted the Department in implementing the
                              President’s Management Agenda initiative on competitive sourcing. An


                                                     11
Chapter One                          Semiannual Report for Transmission to the Congress




              OIG DoD report on a completed competitive sourcing proposal at
              Picatinny Arsenal identified best practices and lessons learned for future
              study teams developing the in-house cost estimate for the most efficient
              organization. Another OIG DoD report on completed competitive
              sourcing function showed the need to revise the options for the Defense
              Finance and Accounting Service military and retired pay function. The
              options needed revision for the cost advantages and disadvantages for
              staying with the contractor and for revision of the methodology used to
              assess contractor performance.

              The Defense auditing community is heavily involved in helping the
              Department pursue savings through the use of credit cards and reduce its
              vulnerability to misuse of the cards. OIG DoD reports on purchase card
              use at the U.S. Army Corps of Engineers, Louisville District and the
              Naval Medical Center, San Diego identified the need to improve
              management controls. Proactive efforts of both the OIG DoD data mining
              group and purchase cards program office of DoD have been increasing
              senior leadership involvement and improving management controls over
              the purchase card program. For example, DoD reduced the number of
              purchase cards by 47 percent, from 214,000 to 114,000. Data mining by
              the auditors also eventually led to the indictments of four people
              including a senior government contracting officer at the Defense
              Enterprise Computer Center-Mechanicsburg for fraudulently using the
              purchase card for $11 million of DoD contracts. The OIG DoD also
              reported that credit limits were $457 million higher than needed for 178
              centrally billed travel cards, and 462 accounts should be closed because
              they are unneeded. Eliminating unneeded accounts and lowering credit
              limits reduces the vulnerability for fraud and misuse.

              DCIO agents are also continuing their efforts to investigate fraud
              involving the Government Purchase Card (GPC) Program. Since
              January 1, 2003, the OIG DoD has been collecting statistics regarding
              DCIO investigations. During this reporting period, the DCIOs reported
              99 GPC cases. Of the 99 cases, 35 are closed and 64 remain active.
              Misuse of the GPC for personal use and schemes regarding kickbacks and
              bribes continue to top the list of investigations. Reported punishments
              include jail terms, fines, and restitution totaling $1.3 million, bad conduct
              discharges, and debarment of contractors. One area of significance
              involved Army cases initiated in South Korea. Of the 27 Army cases
              reported during this period, 12 involved South Korean nationals using the
              GPC for personal reasons, which included kickbacks from local Korean
              contractors. Three of the last six newly opened cases by the Army




                                12
Semiannual Report for Transmission to the Congress                                           Chapter One




                              involved South Korean nationals, both local civilians and Army civilian
                              employees.

                              The Naval Audit Service reported that the desired operational
                              effectiveness, performance, and improved capability of the MK53
                              Decoy Launching System were at risk. Improvements were needed in
                              implementing long-overdue follow-on testing and more effective
                              management of the balance between launchers and available decoys.

                              Programs, sponsored by NCIS and AFOSI, are designed to identify areas
                              of weakness within the procurement system and to provide auditors with
                              the tools, including an Air Force fraud indicators handbook, to identify
                              fraud. The NCIS is also partnering with the acquisition community by
                              placing its agents in numerous Department of Navy acquisition centers
                              and is working with the Naval Audit Service, Naval Inspector General,
                              and the Navy Office of General Counsel’s Procurement Integrity Office
                              to share information and identify fraud trends.

                              Procurement fraud results in the loss of millions of dollars to the
                              Department of Defense. Through their investigative efforts, DCIO
                              agents expose abuses in the procurement process such as product
                              substitution, overcharges, bribes, kickbacks, and the use of defective
                              products. Additionally, the organizations have partnered with other
                              acquisition and financial agencies to identify areas of vulnerability. For
                              example, DCIS has partnered with the Defense Finance and Accounting
                              Office, the Defense Manpower Data Center, and the OIG DoD audit
                              organization to proactively identify areas vulnerable to fraud through the
                              use of various techniques such as data mining. The AFOSI has
                              partnered with Air Force contracting offices to identify vulnerabilities.
                              Similar efforts are underway with the Air Force acquisition fraud
                              counsels.

                              Sample investigative cases involving product substitution and cost
                              mischarging follow.

                                   •   As a result of the investigation of a near collision of two military
                                       aircraft on a training mission, a top 100 DoD contractor in New
                                       York agreed to a $35.9 million administrative settlement to
                                       resolve allegations of providing defective components after it was
                                       discovered that one of its subcontractors provided non-
                                       conforming parts affecting the aircraft’s ability to fly in large
                                       formations in order to conduct strategic airlift operations. The
                                       contractor agreed to replace and repair all the defective parts,


                                                     13
Chapter One                     Semiannual Report for Transmission to the Congress




                  develop a new system to replace the current equipment, provide an
                  interim system, and to do this at no charge to the military.

              •   A major Defense aerospace contractor in Illinois agreed to a civil
                  settlement in which the company forfeited $6 million of a withheld
                  payment of $9.6 million and agreed to provide $1.4 million worth
                  of aircraft parts at no charge to the Department. The settlement
                  resolved false claims allegations after an investigation revealed the
                  company gave subcontractors permission to utilize Russian-
                  smelted titanium on aircraft parts supplied under a DoD contract.
                  The use of specialty metals from non-U.S. sources is prohibited
                  unless prior approval is obtained. The contractor did not obtain the
                  approval prior to incorporating the parts.

              •   A Virginia-based Defense contractor was sentenced to 36 months
                  probation, ordered to pay a $250,000 fine, and required to complete
                  community service at a cost of $60,000 after being convicted of
                  submitting false claims for incorporating a banned substance into
                  the production of military supplies. The contractor’s technical
                  manager was fined an additional $1,000, received 24 months
                  probation, and was ordered to pay a $50 special assessment after
                  being convicted on the same charge. The contractor used lead
                  chromate in the production of a variety of military products
                  including tents, tarps, and vehicle equipment covers. Lead
                  chromate is a known toxic substance and is not permitted for use by
                  military contracts.

              •   An investigation based on a complaint by a company’s former
                  employee ended with fines for the company, and prison and fines
                  for its owner and a civilian Defense contracting officer. The Illinois
                  company, awarded a contract to repair, rebuild or refurbish 12
                  military trucks, instead simply cleaned and repaired engine
                  components. The compan y’s owner co nspired with the
                  government’s contracting officer to submit false claims. The
                  government contracting officer received automotive parts and
                  equipment in exchange for his services. The company was found
                  guilty in U.S. District Court of wire fraud, mail fraud, false claims,
                  and unlawful monetary transactions. It was ordered to forfeit
                  $407,145, pay restitution of $133,592 to the U.S. Government, and
                  pay a $6,800 special assessment. The company was debarred from
                  government contracting. The company’s owner was found guilty of
                  the same charges and sentenced to 37 months confinement, fined
                  $10,000, and ordered to pay $133,592 in restitution and a special



                           14
Semiannual Report for Transmission to the Congress                                                      Chapter One




                                       assessment of $1,700. He was also debarred. The contracting
                                       officer pled guilty to receipt of a bribe and making false
                                       statement. He was sentenced to 4 months confinement, fined
                                       $5,000, and ordered to pay a special assessment of $200 and a
                                       fine of $3,700. He also was debarred and resigned from
                                       government service.

                                   •   An apparel company entered into a $750,000 civil settlement with
                                       the U.S. Government to resolve allegations that it violated the
                                       F a ls e C l a i m s A c t by f a i li n g t o r e t u r n $ 1 . 8 m il l i on in
                                       overpayments it claimed when all payments had been made.
                                       Information for the case was developed under the False Claims
                                       Project that targets DoD contractors who are unwilling to return
                                       overpayments or erroneous payments. To date, companies
                                       involved in the program have been ordered to pay the
                                       Government a total of $1.4 million.

                                   •   A Maryland company and its president entered into a civil
                                       settlement with the Government after an investigation determined
                                       that the company had received payment for work improperly
                                       performed and defrauded the Government in excess of $1.5
                                       million. The company president agreed to pay $100,000 plus half
                                       his military retirement pay for a period of 72 months. The
                                       company agreed to pay $1.5 million.

                                   •   An aerospace and defense systems company agreed to a $6.5
                                       million contract reduction over the remaining life of an aerospace
                                       contract in lieu of facing charges of defective pricing. In contract
                                       negotiations, the company based its proposed material costs for
                                       the firm-fixed price contract on the highest historical costs
                                       incurred instead of an average of the historical costs. This resulted
                                       in a $7 million loss to the Government.

FINANCIAL                     The Department’s financial statements are the largest, most complex,
MANAGEMENT                    and most diverse in the world. The Department faces financial
                              management problems that are complex, long-standing, pervasive, and
                              deeply rooted in virtually all business operations throughout the
                              Department. These problems have hindered the ability to provide
                              reliable, timely, and useful financial and managerial data to support
                              operating, budgeting, and policy decisions. Because of these problems,
                              the Department has been receiving a disclaimer of opinion on all but two
                              of its financial statements. To date, only the Military Retirement Fund




                                                     15
Chapter One                            Semiannual Report for Transmission to the Congress




              has received an unqualified opinion, while the Medicare Eligible Retiree
              Health Care Fund received a qualified opinion for FY 2003.

              The OIG DoD is working closely with the Department to address these
              long-standing problems and supports the Department’s goal of achieving
              a favorable audit opinion for the FY 2007 DoD agency-wide financial
              statements. The Under Secretary of Defense (Comptroller)/Chief
              Financial Officer has directed an initiative to improve financial
              management in the Department with the stated objective of achieving an
              unqualified audit opinion on the Department’s financial statements for
              FY 2007. This initiative will require the OIG DoD, as the Department’s
              statutory auditor, to conduct or contract for annual audits on about 66
              financial statements. To accomplish this enormous task, the OIG DoD
              hired 100 more audit personnel during FY 2004 and plans to hire an
              additional 200 auditors within the next 2 years. In addition, the
              OIG DoD awarded contracts during FY 2004 to audit six DoD financial
              management systems. Each of these audits will determine the accuracy
              and reliability of the data, whether general and application controls are
              adequately designed and effectively operating, whether the system
              complies with the Federal Financial Management Improvement Act
              requirements and all other applicable laws and regulations, and whether
              the system is properly certified and accredited in accordance with the
              DoD Information Technology Security Certification and Accreditation
              Process.

              The DoD audit community issued 78 reports on Financial Management
              during the reporting period. The OIG DoD issued an audit report on the
              reconciliation of suspense accounts and net disbursements at DFAS
              Indianapolis for the Army General Fund. The report found that the
              suspense account balances increased by $767.3 million over the past 3
              years and approximately 1,334 discrepancies valued at $1.8 billion exist
              between the Department of the Treasury and DFAS Indianapolis
              accounting records. Another OIG DoD audit on environmental cost
              estimating and financial reporting found that the data and processes used
              to report $21.9 billion in environmental liabilities reported on the
              FY 2002 Army financial statement for the Base Realignment and
              Closure (BRAC), Defense Environmental Restoration Program, and
              non-Defense Environmental Restoration Program did not have adequate
              documentation and audit trails. Additionally, the management controls
              over the Navy’s $10.1 billion environmental liability estimate reported
              on the FY 2002 Navy financial statement for the disposal of nuclear
              powered ships needed improvement.




                                  16
Semiannual Report for Transmission to the Congress                                        Chapter One




                              The Air Force Audit Agency issued a report concerning the Reliability
                              and Maintainability Information System (REMIS), a critical financial
                              feeder and management information system containing over 8,200
                              aerospace vehicles valued in excess of $150 billion. Although program
                              personnel generally developed and implemented adequate system
                              controls, improvements were needed in adequately addressing
                              applicable Federal accounting standards and strengthening system
                              controls. The recommended improvements should enhance data integrity
                              and provide users more complete, timely, reliable, and consistent
                              financial data to support management decisions.

                              As a result of the Federal Acquisition Streamlining Act and the
                              Government Paperwork Elimination Act, the Department of Defense
                              now conducts millions of electronic financial transactions a year – thus
                              dramatically increasing the threat of financial fraud. The DCIS continues
                              to proactively respond to this threat through smart partnering with
                              Department auditors and educating DoD employees in an attempt to
                              identify those areas that are vulnerable to fraud, waste, and abuse.

HEALTH CARE                   The DoD military health system challenge is to provide high quality
                              health care, within fiscal constraints, in both peacetime and wartime for
                              approximately 9.2 million eligible beneficiaries. This challenge is more
                              daunting in the face of price growth pressure that has made cost control
                              difficult in both the public and private sectors. The DoD challenge is
                              magnified because the military health system must also provide health
                              support for the full range of military operations. The system was funded
                              for a total amount of $29.8 billion in fiscal year 2004, including
                              $5.4 billion from the DoD Medicare-Eligible Retiree Health Care Fund
                              to cover the costs of health care for Medicare-eligible retirees, retiree
                              family members, and survivors.

                              An OIG DoD audit of management of pharmaceutical inventory and
                              processing of returned pharmaceuticals found that although DoD is
                              improving pharmaceutical operations, the risk of dispensing expired
                              pharmaceuticals can be minimized by reducing inventory levels through
                              improvements in policy, oversight, and automation. Although the
                              Department has a national contract for processing the return of outdated,
                              expired, and recalled pharmaceuticals and has established a working
                              group to address contract issues, implementing and managing the
                              pharmaceutical returns program needs to be improved. The Office of the
                              Assistant Secretary of Defense (Health Affairs) and the Military
                              Department Surgeons General agreed to develop policy and establish
                              oversight procedures of the pharmaceutical returns program to better


                                                     17
Chapter One                            Semiannual Report for Transmission to the Congress




              control funds expended for the returns services and the credits received,
              and to reduce the number of pharmaceuticals that will ultimately expire
              and have to be returned.

              Another OIG DoD audit of direct-care medical services contracts
              showed that although DoD and the Military Departments had ongoing
              initiatives regarding the acquisition of direct-care medical services, an
              overall strategic approach is needed. Recommendations were made to
              establish a pilot program for acquiring direct-care medical services and
              to develop implementing guidance.

              The Army Audit Agency reported that the Europe Regional Medical
              Command did not have adequate processes and procedures for billing,
              collecting, and accounting for billable services provided to paying
              patients. Problems occurred because of billing inaccuracies, billing
              procedures, delinquent accounts, accounting for medical services, and
              management controls. As a result, about $3 million in bills for medical
              services were backlogged or unaccounted for, and the command had no
              assurance that facilities were recovering the costs of providing medical
              services to paying patients.

              To ensure that Department of Defense health program funding is utilized
              in a proper and efficient manner toward providing quality patient care to
              TRICARE beneficiaries, the DCIS has aggressively pursued health care
              investigations involving “harm to patient,” corruption, kickbacks, and
              allegations with significant TRICARE impact. DCIS continues to serve
              as an active participant in local health care fraud task forces and the
              National Health Care Anti-Fraud Association. Recently, DCIS formed
              an alliance with various U.S. Attorney’s Office, TRICARE, and DoD
              OIG auditors to address systemic weaknesses and vulnerabilities in the
              TRICARE Overseas Program. Two examples of significant healthcare
              fraud investigations follow:

                   •   A joint investigation, initiated as a result of a qui tam complaint,
                       resulted in a $35 million civil settlement between a Washington
                       healthcare provider and the U.S. Government. The healthcare
                       provider had allegedly submitted false claims to various
                       Government agencies, including TRICARE, relative to medical
                       services not rendered.

                   •   In California, a medical facility entered into a $2.2 million civil
                       settlement to resolve allegations that it submitted fraudulent




                                  18
Semiannual Report for Transmission to the Congress                                        Chapter One




                                       claims in its cost reports to TRICARE and other Federal health
                                       care programs.

LOGISTICS                     The challenge of making DoD a world-class logistics provider is vast
                              and the Department has numerous initiatives to help improve logistics.
                              These include Force-centric Logistics Enterprise, DoD Business
                              Management Modernization Program, and Performance Based
                              Logistics. The Force-centric Logistics Enterprise initiative is DoD’s
                              comprehensive program to integrate logistics with operational planning
                              and to meet warfighter requirements for more agile and rapid support.
                              Force-centric Logistics Enterprise is focused on near-term collaborative
                              initiatives that directly improve warfighter support, address known
                              structural problems, and accelerate the achievement of DoD’s long-
                              range vision of Focused Logistics. Specific collaborative initiatives
                              include: Enterprise Integration/Enterprise Resource Planning; Total
                              Life-Cycle Systems Management; End-to-End Distribution; Executive
                              Agents; Condition-Based Maintenance Plus; and Depot Maintenance
                              Partnerships. The primary objective of the DoD Business Management
                              Modernization Program is to change DoD business processes in
                              financial and logistics systems to achieve efficiencies, and in the
                              process, to eliminate redundant and noncompatible systems. The
                              objectives of the Performance Based Logistics initiative are to compress
                              the supply chain, eliminate non-value-added steps, and improve
                              readiness for major weapons systems and commodities.

                              DoD logistics support operations for supplies, transportation, and
                              maintenance cost more than $90 billion annually. Defense maintenance
                              alone consumes an estimated $59 billion annually. It is a function that
                              involves nearly 700,000 active duty and reserve military personnel and
                              civilian personnel, as well as several thousand private-sector firms.
                              Supported weapon systems include more than 300 ships, 15,000 aircraft
                              and helicopters, 330,000 ground combat and tactical vehicles, and
                              hundreds of thousands of additional mission-support assets. In addition,
                              DoD maintains a varied inventory of items such as clothing, engines,
                              and repair parts, valued at an estimated $67 billion, all to support the
                              warfighter. The DoD audit community issued 28 logistics-related reports
                              during the reporting period.

                              OIG DoD logistics audits during the period are typical of the broad
                              range of audits recommending improvements to logistics operations.
                              An OIG DoD report addressed the Military Departments’
                              implementation of Performance Based Logistics in support of weapon
                              systems. Overall, the Military Departments were implementing


                                                     19
Chapter One                                Semiannual Report for Transmission to the Congress




                  Performance Based Logistics strategies; however, with the exception of
                  Navy headquarters, their efforts were inconsistent, processes were
                  inadequate and uncoordinated, and results undeterminable. Another OIG
                  DoD audit determined that the controls over materiel designated for or
                  sent to disposal needed improvement. A judgmental sample of 700 Navy
                  disposal transactions, valued at $134.3 million, showed that $39 million
                  worth of Government property was not recorded on accountable supply
                  records and was vulnerable to loss or undetected theft. The Navy has
                  taken action to ensure that fleet activities comply with current policy
                  regarding disposal transactions.

                  The Army Audit Agency issued a report discussing the review process
                  for Operational Projects. Because of the inadequate review process,
                  requirements were overstated by about $125.6 million. In addition, none
                  of the Operational Projects had enough materiel on hand to satisfy
                  intended purposes, and after requirements are reduced, Eighth Army will
                  have about $37.6 million of excess equipment on hand which could be
                  distributed to other activities with valid needs, providing additional cost
                  savings.

                  The Air Force Audit Agency issued a report discussing parts furnished
                  to contractors to enable them to perform work necessary to produce,
                  maintain, and repair equipment. Control over the return of the parts
                  issued to contractors and the related price adjustment for unserviceable
                  parts not returned was ineffective. Management did not adequately track
                  the return of parts valued at $619.8 million, receive parts valued at
                  $238.9 million, or charge Air Force Working Capital Fund customers for
                  parts not returned.

INFRASTRUCTURE    The challenge in managing about 4,700 military installations and other
AND ENVIRONMENT   DoD sites is to provide modern, habitable, and well-maintained
                  facilities, which cover a wide spectrum from test ranges to housing.
                  Review of defense and security needs resulted in transformation of a
                  force structure that must be accompanied by a new base structure. There
                  is an obsolescence crisis in the facilities area itself, and environmental
                  requirements are continually growing. Furthermore, the Department
                  maintains more facility infrastructure than needed to support its forces;
                  there is an estimated 25 percent more base capacity than needed.
                  Maintaining those facilities diverts scarce resources from critical areas.
                  However, the Department has been making progress this year in defining
                  all of the infrastructure problems by working towards recommendations
                  for realignment and closure in the BRAC 2005 process.




                                      20
Semiannual Report for Transmission to the Congress                                         Chapter One




                              Transformation through BRAC poses a significant challenge and
                              opportunity for DoD. BRAC 2005 should eliminate excess physical
                              capacity and transform the infrastructure in such a way that provides
                              opportunities for more efficient joint activity. As part of the challenge,
                              DoD must meet the timelines established in law and use certified data
                              that are accurate and complete to develop the recommendations. The
                              OIG DoD and Service audit agencies have a large ongoing effort
                              validating the internal controls and accuracy of the certified data to
                              ensure a fair and accurate process that will withstand Government
                              Accountability Office, Base Realignment and Closure Commission, and
                              public scrutiny.

                              An OIG DoD report on $32 billion of environmental liabilities at Army
                              and Navy installations showed that the reliability of data and processes
                              needed improvement. About $22 billion of reported Army
                              environmental liabilities lacked adequate documentation and audit trails.
                              Also, Army and Navy models used for estimating environmental
                              liabilities needed verification and validation to actual project cleanup
                              costs. The Navy needed better controls over the estimating procedures
                              for disposal of nuclear powered ships.

                              Executive Order 13148 directs that by December 31, 2005, each agency
                              shall implement an environmental management system at all appropriate
                              agency facilities based upon facility size, complexity, and the
                              environmental aspects of facility operations. Environmental
                              management systems protect the environment while ensuring ranges are
                              available for future testing and training. In the past, the Inspector
                              General identified environmental encroachment issues that impact
                              readiness at test and training ranges. Additionally, installation
                              restoration (clean-up) practices at active installations and clean-up
                              activities at closing installations are DoD’s biggest environment
                              expenditures. The Inspections and Evaluations Directorate has been
                              developing a program to evaluate processes for protecting the
                              environment while protecting DoD’s requirement to be mission ready.
                              Today, as never before, the Department of Defense faces significant
                              challenges to conduct the realistic training necessary to produce combat-
                              ready forces. Hence, the DoD IG is carefully assessing the balance
                              between military requirements and the public’s concern for the
                              environment. Because the nation is at war, DoD has had to increase
                              training and expand land and air maneuver space requirements. The
                              operations tempo correspondingly increases the stress on the testing and
                              training range infrastructure. The OIG is exploring how best to achieve
                              mission success while minimizing the impact on the environment.


                                                     21
Chapter One                                  Semiannual Report for Transmission to the Congress




                    The DCIOs continue to proactively address environmental issues and
                    investigate crimes affecting the natural resources so valuable to our
                    defense infrastructure. For example:

                         •   A recycling company was fined $3.9 million after pleading no
                             contest to violating the Clean Water Act and submitting false
                             statements concerning illegal discharge activities. Four former or
                             current employees entered guilty pleas to the offense of
                             Conspiracy to violate the Clean Water Act and were sentenced to
                             home confinement, fined and ordered to pay special court
                             assessments. The company’s former owner fled the United States
                             and is currently a fugitive. The recycling company, engaged in the
                             smelting of scrap to recover copper, discharged zinc oxide slurry
                             into U.S. waters and installed a “secret” discharge pipe connected
                             to a storm water retention system to control the flow of pollutants
                             into a protected wetland.

                         •   A Georgia pipeline company with DoD contracts was sentenced
                             to pay a $50,000 fine, a $125 special assessment fee, and
                             $350,000 in restitution to be used on environmental education and
                             protection within Tennessee after pleading guilty to discharging
                             diesel fuel from its pipeline into navigable waters without a
                             permit authorizing such discharge.

OTHER SIGNIFICANT   Today, agents from the four Defense Criminal Investigative
ACTIVITIES          Organizations (DCIOs) provide investigative support to the Department
                    in Iraq, Guantanamo Bay and Afghanistan. Working with local law
                    enforcement authorities in Iraq, DCIO special agents supported the
                    former Coalition Provisional Authority and now the Special Inspector
                    General for Iraqi Reconstruction, thus playing a significant role in the
                    rebuilding of Iraq as a sovereign democratic nation. The U.S. Army
                    Criminal Investigation Command (USACIDC) provides command and
                    control of the joint protective service protective mission for the senior
                    United Nations official in Iraq, as well as for all senior military
                    commanders in theater. The NCIS provides tactical counterintelligence
                    to the coalition as well as protective service. Additionally, DCIO agents
                    have developed other relationships as exemplified by the AFOSI
                    sponsoring and hosting the Baghdad Chief of Police Forces to the
                    International Association Chiefs of Police, European Policing
                    Conference held in Northern Ireland. This marked the first time that a
                    senior Iraqi law enforcement official traveled to liaison with the
                    international law enforcement community.




                                        22
Semiannual Report for Transmission to the Congress                                          Chapter One




                              Prisoner/detainee abuse allegations have received significant press
                              coverage and other attention during the recent months. Because of the
                              various ongoing activities of the affected commands and of the
                              inspection and investigative units of the military departments relating to
                              these allegations, some of which raise questions of serious misconduct
                              against senior DoD officials, the IG DoD established a multi-
                              disciplinary team to monitor Departmental reviews and investigations
                              into the alleged abuse. The mission of the team is two-fold: (1) facilitate
                              the timely flow of “law enforcement sensitive” information to senior
                              leaders of the DoD (including the Military Departments), and (2)
                              subsequently address any remaining issues. As part of the OIG response,
                              the Deputy Inspector General for Intelligence established a team to
                              monitor the status of the various investigations and inquiries conducted
                              within the DoD relating to prisoner/detainee abuse allegations. The
                              Deputy Inspector General for Inspections and Policy established a task
                              force of criminal investigators and investigative review specialists from
                              the OIG and the Military Criminal Investigative Organizations to review
                              all closed criminal investigations conducted into allegations of abuse by
                              U.S. forces against detainees in Iraq, Afghanistan, and Guantanamo Bay.
                              The task force is charged with ensuring that existing DoD and Service
                              policies and procedures facilitate thorough and timely criminal
                              investigations of alleged detainee abuse and with evaluating the
                              sufficiency of the investigations.

                              On September 20, 2004, the Inspectors General of the Department of
                              Defense and Coalition Provisional Authority signed a Memorandum of
                              Agreement that places the CPA-IG Hotline under the operational control
                              of the Defense Hotline.

                              The Inspections and Evaluations Directorate concluded a 10-month
                              follow-up review of the DoD fire and emergency services program.
                              Results of the review reinforce the need to revise the DoD Fire and
                              Emergency Services Strategic Plan. The Strategic Plan should establish
                              a long-term approach to resolving human capital and fire and emergency
                              services challenges.

                              The Strom Thurmond National Defense Authorization Act for Fiscal
                              Year 1999 (Public Law 105-261) requires that, “Every three years the
                              Inspector General of a military department shall inspect the [Armed
                              Forces] Retirement Home, including the records of the Retirement
                              Home.” One of the problems associated with this requirement is the lack
                              of standardized criteria for conducting these inspections. As the Military
                              Department IGs rotated the responsibility for these inspections, there


                                                     23
Chapter One                            Semiannual Report for Transmission to the Congress




              was no continuity from one inspection to the next, resulting in
              ineffective metrics and inefficient trend analyses. As a solution to this
              problem, in April 2004, the OIG DoD assisted the Office of the
              Secretary of Defense in a review of past inspections and facilitated the
              draft of a new DoD Directive, Instruction, and a standard inspection
              checklist. These documents have been forwarded to the Under Secretary
              of Defense for Personnel and Readiness for coordination with the
              military services.

              Allegations against Islamic religious organizations that endorsed Islamic
              chaplains to the Military Departments generated congressional concerns
              about the credibility of the DoD accession process for military chaplains.
              As requested by Senator Charles Schumer, in October 2003, the
              Inspections and Evaluations Directorate initiated an evaluation of the
              DoD Chaplain program to review how military chaplains are selected, to
              include a review of the qualification criteria for the religious
              organizations and their endorsing agents and the policies that govern
              program management.

              The Coalition Provisional Authority Inspector General (CPA-IG) has
              undertaken the responsibility to help the Iraqi government establish an
              Iraqi Anti-Corruption program, consisting of three elements: the Iraqi
              Board of Supreme Audit (BSA), the Iraqi Ministry Inspectors General
              (IGs), and the Commission on Public Integrity (CPI). In order to sustain
              this effort the CPA-IG in Baghdad is establishing an “Academy of
              Principled Governance.” The vision for this Academy is to provide
              training and education for auditors, investigators, and inspectors for all
              three elements of the Anti-Corruption program. The training plan
              includes orientation visits to several government agencies in the United
              States. To organize and facilitate those visits, the Inspections and
              Evaluations Directorate is coordinating support activities in the
              Washington DC area.

              The DCIOs also investigate cases of kickbacks, bribes, and illegal
              campaign activity. Four such cases are described below.

                   •   A California prime defense contractor agreed to pay $1 million to
                       the Government as part of a criminal settlement agreement. An
                       investigation disclosed that several of its employees engaged in
                       violations of the Anti-Kickback Act by receiving illegal
                       kickbacks from several subcontractor employees.




                                  24
Semiannual Report for Transmission to the Congress                                           Chapter One




                                   •   In Virginia, a moving company pled guilty to violating the Anti-
                                       Kickback Act and was ordered to pay a $250,000 fine and a $400
                                       general assessment. The company was involved in a price fixing
                                       scheme with European freight forwarders to raise rates charged to
                                       the Department of Defense to move household goods belonging
                                       to military and civilian personnel from Germany to the United
                                       States.

                                   •   A project manager for a California-based small and
                                       disadvantaged defense contractor was sentenced to 30 days
                                       confinement and 2 years supervised probation and ordered to pay
                                       a $1,000 fine and a $50 special assessment after pleading guilty to
                                       illegally supplementing a Federal official’s salary. The official,
                                       convicted and sentenced earlier, was in a position to exert
                                       substantial influence over the award of DoD contracts.

                                   •   A District Court judge in California sentenced the president and
                                       former owner of a defense contractor to 6 months of
                                       electronically monitored home confinement and 36 months
                                       probation and ordered him to complete 200 hours of community
                                       service within a 2-year period. He was also ordered to dissolve his
                                       company. The president and former owner pled guilty to charges
                                       of conspiracy and making unlawful campaign contributions to
                                       several U.S. Congressmen in an attempt to influence their votes to
                                       award a multi-million dollar, sole source DoD contract to his
                                       company. Claims against the company had been resolved earlier
                                       in a $3 million settlement agreement.




                                                     25
Chapter One             Semiannual Report for Transmission to the Congress




              This page left blank intentially




                   26
Semiannual Report for Transmission to the Congress                                        Chapter Two




CHAPTER 2 - OFFICE OF THE INSPECTOR GENERAL

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Auditing (ODIG-AUD)
GENERAL FOR                 conducts audits on all facets of DoD operations. The work results in
AUDITING                    recommendations for reducing costs, eliminating fraud, waste, and abuse
                            of authority, improving performance, strengthening internal controls, and
                            achieving compliance with laws, regulations, and policies. Audit topics
                            are determined by law, by requests from the Secretary of Defense and
                            other DoD leadership, by Hotline allegations, by congressional requests,
                            and by internal analyses of risk in DoD programs.

                            The ODIG-AUD serves as the focal point for Government Accountability
                            Office (GAO) activity in the DoD, and continues to perform follow-up on
                            GAO and OIG report recommendations.

 DoD Audit                  The defense audit community consists of the OIG DoD, the Army Audit
 Community                  Agency, the Naval Audit Service, and the Air Force Audit Agency. As a
                            whole, the organizations issued 257 reports, which identified the
                            opportunity for $1,970,299,091 in monetary benefits. Appendices B and
                            C, respectively, list OIG DoD reports with potential monetary benefits
                            and statistically summarizes audit followup activity.

                            The Defense Contract Audit Agency (DCAA) provided financial advice
                            to contracting officers in 21,952 reports during the period. The contract
                            audits resulted in almost $3.5 billion in questioned costs and funds that
                            cold be put to better use. Appendix D contains the details of the audits
                            performed. Contracting officers disallowed $162 million of the $414
                            million questioned as a result of significant post-award audits. Additional
                            details on the amounts disallowed are found in Appendix E.

 Significant Open           Managers accepted or proposed acceptable alternatives for 365 (99
 Recommendations            percent) of the 369 OIG DoD audit recommendations made in the last 6
                            months of fiscal year 2004. Many recommendations require complex and
                            time-consuming actions, but managers are expected to make reasonable
                            efforts to comply with agreed-upon implementation schedules. Although
                            most of the 1049 open actions being tracked in the OIG DoD follow up
                            systems are on track for timely implementation, there were 212 reports




                                                     27
Chapter Two                                                       Semiannual Report for Transmission to the Congress




                                  more than 12 months old, dating back as far as 1991, for which
                                  management has not completed actions to implement the recommended
                                  improvements.1

                                  Significant open recommendations that have yet to be implemented
                                  include the following:

                                         •    Recommendations made in 2002 to improve oversight and
                                              management controls, and develop training for the DoD
                                              purchase card program. A standardized training program for
                                              cardholders and billing officials has been developed. DoD
                                              policies and guidance on purchase card use and management
                                              controls nearing completion.

                                         •    Recommendations made in 2002 and subsequent years to
                                              negotiate amendments to Cooperative Threat Reduction (CTR)
                                              Program agreements to use U.S.-provided assistance for
                                              intended purposes. Proposed CTR agreement amendments to
                                              ensure that the Russian Federation will meet its commitments,
                                              and also to provide access to, and visibility over the use of U.S.-
                                              funded CTR facilities are being coordinated among Russian
                                              Federation Ministries. Actions are being taken to reclaim facility
                                              components or utilize remaining assets for CTR purposes, and to
                                              avoid the pitfalls that resulted in construction of facilities that
                                              were not used as intended.

                                         •    Recommendations made in 2001 and subsequent years
                                              addressing financial systems deficiencies. Initiatives underway
                                              to correct financial systems deficiencies should enable the
                                              Department to provide accurate, timely, and reliable financial
                                              statements. In response to recommendations made in 2003,
                                              efforts are underway to establish an integrated repository that
                                              will include existing relevant databases and will capture
                                              information technology systems and business systems, as well as


1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to
  complete final action with regard to a management decision within the 12-month period, the inspector general concerned
  shall identify the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector
  General Act of 1978 (5 U.S.C. App.) until final action on the management decision is completed.” A list of OIG DoD
  reports on which management decisions have been made but final action has not been taken is continued in the Secretary
  of Defense Report issued pursuant to section 5(a) of the Inspector General Act.




                                                             28
Semiannual Report for Transmission to the Congress                                         Chapter Two




                                      budget data. However, at present this is not expected to occur
                                      until FY 2007.

                                  •   Recommendations made in 2001 and subsequent years on
                                      various aspects of information security, including updating
                                      guidance for information security, certification and accreditation
                                      of various DoD systems, and the identification and registry of
                                      DoD information systems. Completion of planned actions in
                                      response to those recommendations will address requirements of
                                      the Federal Information Security Management Act.

                                  •   Recommendations made in 2001 and subsequent years
                                      addressing competitive sourcing and cost comparison issues
                                      associated with OMB Circular No. A-76. Efforts are underway
                                      to update DoD’s A-76 implementing guidance on the revised
                                      OMB Circular No. A-76.

                                  •   Recommendations made in 1999 and subsequent years
                                      addressing the need to prepare U.S. forces to survive and operate
                                      in a chemical and biological warfare environment by improving
                                      the management of resources for defending against chemical
                                      and biological weapons. The Services and combatant commands
                                      are taking steps to ensure that their forces are adequately
                                      equipped and trained. The Department is in the process of
                                      implementing a standardized inventory system that will
                                      provided total visibility over chemical and biological defense
                                      assets.

DEPUTY INSPECTOR            The Office of the Deputy Inspector General for Investigations (ODIG-
GENERAL FOR                 INV) comprises the criminal and the administrative investigative
INVESTIGATIONS              components of the OIG. The Defense Criminal Investigative Service
                            (DCIS) is the criminal investigative component of the OIG DoD. The
                            non-criminal investigative units include the Directorate of Investigations
                            of Senior Officials (ISO), the Directorate for Military Reprisal
                            Investigations (MRI), and the Directorate for Civilian Reprisal
                            Investigations (CRI).

 Defense Criminal           The Defense Criminal Investigative Service (DCIS) is tasked with the
 Investigative              mission to protect America’s warfighters by conducting investigations in
 Service                    support of crucial national defense priorities. DCIS conducts
                            investigations of suspected major criminal violations focusing mainly on
                            terrorism, product substitution/defective parts, cyber crimes/computer
                            intrusion, illegal technology transfer, and other categories of fraud


                                                     29
Chapter Two                                     Semiannual Report for Transmission to the Congress




                      including bribery, corruption, and major theft. DCIS also promotes
                      training and awareness in all elements of the DoD regarding the impact of
                      fraud on resources and programs by providing fraud awareness
                      presentations.

 Defense Criminal     The DCIS, the U.S. Army Criminal Investigation Command (USACIDC),
 Investigative        the Naval Criminal Investigative Service (NCIS), and the Air Force
 Organizations        Office of Special Investigations (AFOSI) together are known as the
                      Defense Criminal Investigative Organizations (DCIOs). The DCIS
                      focuses its investigative priorities on terrorism, technology protection,
                      product substitution, computer crime, financial crime, public corruption,
                      and major thefts. The USACIDC, NCIS, and AFOSI also investigate
                      procurement fraud, but their primary mission focus is terrorism, force
                      protection, general crimes under the Uniform Code of Military Justice,
                      and crimes affecting major weapons systems within their respective
                      Military Departments. The AFOSI and NCIS also conduct
                      counterintelligence investigations and operations. The DCIOs support
                      anti-terrorism investigations and participate as members of Joint
                      Terrorism Task Forces. Additionally, they work cooperatively to
                      investigate cases involving more than one service.

                      Monetary recoveries and fines related to all criminal investigations
                      throughout the DoD totaled more than $140 million. Figure 1 below
                      displays other statistical results achieved by the investigative
                      organizations during this semiannual reporting period.



                    Judicial and Administrative Actions
                            Convictions         Indictments       Debarments         Suspensions

       Terrorism                 10                    12

       Procurement/                                                     46                30
       Health Care Fraud
                                 30                    33

       Other                     263                  209

       Total                     303                  254

                                                Figure 1



                                           30
Semiannual Report for Transmission to the Congress                                                                                   Chapter Two




 Directorate for                   The IG DoD Directorate for Investigations of Senior Officials conducts
 Investigations of                 investigations into allegations against senior military and civilian officials
 Senior Officials                  and performs oversight of senior official investigations conducted by the
                                   Military Departments.

                                   Figure 2 (below) and Figure 3 (the follwing page) show results of activity
                                   on senior official cases during the second 6 months of FY 2004. On
                                   September 30, 2004, there were 241 ongoing investigations into senior
                                   official misconduct throughout the Department, which represented a
                                   slight decrease from March 31, 2004, when we reported 263 open
                                   investigations. Over the past 6 months, the Department closed 233 senior
                                   official cases, of which 35 (15 percent) contained substantiated
                                   allegations.




                                        D o D T o ta l S e n io r O ffic ial C a se s
                                                F Y 2 0 0 0 - F Y 2 0 04
              600                                  578

                                                                     503
                                             488                                             466                          489
              500      455                                                 460                                      472
                                                                                                   427
                             402
              400

              300

              200
                                                         89
              100                  69                                            70
                                                                                                         57
                                                                                                                                71



                 0
                         F Y00                  F Y01                  F Y02                   F Y03                    F Y04

                                             Op ened             Closed               Su bstan tiated
                        T h is ch a rt sh o w s th e to ta l n u m b er o f sen io r o fficia l in v e stig a tio n s
                                    co n d u cted in D o D o v er th e p a st fiv e fis c a l ye a rs.
                                                               Figure 2




                                                                     31
Chapter Two                                                 Semiannual Report for Transmission to the Congress




              N a tu r e o f S u b s ta n tia te d A lle g a tio n s A g a in s t S e n io r O ff ic ia ls
                                           D u r in g 2 n d H a lf F Y 0 4
         M is u s e /W a s te                                         O th e r
             of G ov t                                             M is c o n d u c t
          R es ou rces                                                 13%
               35%
                                                                                             A b u s e of
                                                                                             A u th o r ity
                                                                                                19%



                                                                                              S ex u al
                                                                                         I m p r o p r ie tie s
                                                   Im p rop er                                   2%
                                                   P ers on n el
                                                     A c tio n
                                                      31%

                                                     Figure 3


 Directorate for                The OIG, DoD Directorate for Military Reprisal Investigations (MRI)
 Military Reprisal              conducts investigations and performs oversight of investigations
 Investigations                 conducted by the Military Departments. Those investigations pertain to:

                                      •   Allegations that unfavorable actions were taken against
                                          members of the Armed Forces, DoD non-appropriate fund
                                          employees, and Defense contractor employees in reprisal for
                                          making protected communications.

                                      •   Allegations that members of the Armed Forces were referred for
                                          mental health evaluations without being afforded the procedural
                                          rights prescribed in the DoD Directive and Instruction

 Whistleblower                  During the reporting period, MRI and the Military Department Inspectors
 Reprisal Activity              General received 311 complaints of whistleblower reprisal. We closed
                                310 reprisal cases during this period, which included six (6) complaints
                                submitted by current and former Air Force Academy cadets who alleged
                                they received unfavorable actions after reporting sexual assaults. Of those
                                310 cases, 250 were closed after preliminary analysis determined further
                                investigation was not warranted and 63 were closed after investigation. Of




                                                       32
Semiannual Report for Transmission to the Congress                                         Chapter Two




                            the 63 cases investigated, 16 (25%) contained one or more substantiated
                            allegations of whistleblower reprisal.

                            The MRI and the Military Departments currently have 383 open cases
                            involving allegations of whistleblower reprisal.

 Examples of                An Air Force master sergeant in Utah alleged he received an unfavorable
 Substantiated              enlisted performance report in reprisal for making protected
 Whistleblower              communications to an inspector general about mismanagement by
 Reprisal Cases             officers in his command. Our investigation found that an Air Force major
                            and a Navy captain reprised against the master sergeant for his protected
                            communications. Corrective action is pending against both officers.

                            An Army specialist in Hawaii submitted a complaint that he was
                            threatened with an Article 15 and involuntary separation in reprisal for his
                            complaint to an inspector general about being tasked for a duty
                            assignment by the first sergeant. An Army investigation substantiated that
                            the specialist’s First Sergeant threatened Article 15 action in reprisal for
                            his protected communication. Corrective action is pending against the
                            First Sergeant.

                            A lieutenant in the Navy Reserve alleged she was issued a letter of
                            instruction and downgraded fitness report in reprisal for her complaints of
                            discrimination to her chain of command and Equal Opportunity Office,
                            and testimony to the Defense Advisory Committee on Women in the
                            Services (DACOWITS). Our investigation substantiated that two Navy
                            captains reprised against the lieutenant. Both responsible officials
                            subsequently retired from active duty.

 Referrals for Mental       We closed twenty nine (29) cases involving allegations of improper
 Health Evaluations         referrals for mental health evaluations during the reporting period. In 20
                            (69%) of those cases, we substantiated that command officials and/or
                            mental health care providers failed to follow the procedural requirements
                            for referring Service members for mental health evaluations under DoD
                            Directive 6490.1, “Mental Health Evaluations of Members of the Armed
                            Forces.” Although these officials failed to follow procedural guidelines
                            due to ignorance of the DoD Directive, we did not substantiate these
                            mental health referrals were in reprisal for Service member’s protected
                            communications.

 Directorate for            The Directorate for Civilian Reprisal Investigations (CRI) was established
 Civilian Reprisal          in January 2004, to serve as “advocate” protecting civilian-employee
 Investigations (CRI)       relaters of fraud, waste, abuse of authority, and mismanagement in the


                                                     33
Chapter Two                                  Semiannual Report for Transmission to the Congress




                   DoD. CRI conducts investigations, coordinates personnel management
                   remedies, reaches out to federal and non-federal agencies involved with
                   whistleblower affairs.

                   The Directorate has a total of 16 active, open cases. During the reporting
                   period, CRI attained its first success when a Department of the Air Force
                   employee wrongly terminated was restored to his position by the U.S.
                   Merit Systems Protection Board (Atlanta Regional Office).

                   The primary focus of CRI’s outreach during this period has been directed
                   at increasing communication between those DOD components which
                   conduct investigations into alleged reprisals against members of the DOD
                   intelligence community.

DEPUTY INSPECTOR   The Office of the Deputy Inspector General for Intelligence (ODIG-
GENERAL FOR        INTEL) audits, reviews, evaluates, and monitors the programs, policies,
INTELLIGENCE       procedures, and functions of the DoD Intelligence Community and the
                   intelligence-related activities within the DoD Components, primarily at
                   the DoD, Service, and Combatant Command levels, ensuring that
                   intelligence and intelligence-related resources are properly, effectively,
                   and efficiently managed. The Office also conducts oversight of Service
                   and Defense agency reviews of security and counterintelligence within all
                   DoD test and laboratory facilities.

 Intelligence      The Office of the Inspector General of the DoD, the IGs of the Defense
 Community         Intelligence Agency, National Geospatial-Intelligence Agency, National
                   Reconnaissance Office, and National Security Agency; the Naval Audit
                   Service; the Naval Criminal Investigative Service; the Air Force Audit
                   Agency; the Army Audit Agency; and the Defense Contract Audit
                   Agency completed 104 intelligence-related reports the reports are
                   categorized into the areas shown in Figure 4 on the following page. A
                   listing and highlights of the 104 reports can be found in the Classified
                   Annex to this report.




                                        34
Semiannual Report for Transmission to the Congress                                                                                Chapter Two




                                                       In t e llig e n c e - R e la t e d R e p o r t s

         D o D M a n a g e m e n t C h a lle n g e                                     M ilit a r y       D e fe n s e
                         A re a                                     O IG D o D     D e p a rtm e n ts     A g e n c ie s   T o ta l

        J o in t W a r fig h tin g a n d R e a d in e s s                4                 0                   15           19
        H o m e la n d S e c u r ity                                     2                 6                   1             9
        H u m a n C a p ita l                                            1                 0                  13            14
        I n fo r m a tio n T e c h n o lo g y M a n a g e m e n t        1                 2                   9            12
        S tr e a m lin e d A c q u is itio n P r o c e s s e s           0                 2                   0             2
        F in a n c ia l M a n a g e m e n t                              3                 2                   14           19
        H e a lth C a r e                                                0                 0                   0             0
        L o g is tic s                                                   0                 0                   0             0
        I n fr a s tr u c tu r e a n d E n v ir o n m e n t              1                 1                   1             3
        O th e r                                                         3                 0                   23            26


            T o ta l R ep o r ts Issu e d                               15                13                   76          104


                                                                        Figure 4




                                          The Intelligence Community Inspectors and Auditors General continued
                                          to coordinate and share information to improve the effectiveness and
                                          efficiency of oversight of DoD intelligence activities. The Intelligence
                                          Community Inspectors General Forum serves as a mechanism for sharing
                                          information among Inspectors General whose duties include audit,
                                          evaluation, inspection, or investigation of programs and operations of
                                          Intelligence Community elements. The Information Assurance Working
                                          Group, established by the Intelligence Community Inspectors General
                                          Forum in 1999, monitors and evaluates the status of management policies
                                          and oversight of efforts to protect the Intelligence Community systems.
                                          Within DoD, the Joint Intelligence Oversight Coordination Group
                                          comprises senior representatives from the Office of the Secretary of
                                          Defense and Defense intelligence agency and Military Department audit,
                                          evaluation, and inspection organizations. The objectives of this group are
                                          to improve the effectiveness and efficiency of DoD oversight of
                                          intelligence activities by identifying areas needing more emphasis and
                                          deconflicting oversight programs. See the Classified Annex to this report
                                          for information on meetings of these groups.




                                                                             35
Chapter Two                                    Semiannual Report for Transmission to the Congress




DEPUTY INSPECTOR    The Office of the Deputy Inspector General for Inspections and Policy
GENERAL FOR         (ODIG-I&P) conducts inspections and evaluations, manages the DoD
INSPECTIONS AND     Hotline, and provides the oversight and policy for Audit and Investigative
POLICY              activities within DoD, as required by Section 8 of the IG Act.

 Inspections and    The Inspections and Evaluations Directorate within the Office of the
 Evaluations        Deputy Inspector General for Inspections and Policy promotes positive
 Directorate        change by identifying opportunities for performance and efficiency
                    improvements in DoD programs and operations. The Directorate conducts
                    objective and independent customer-focused management and program
                    inspections addressing areas of interest to Congress and the Department
                    of Defense.

                    The Directorate is projected to build to 50 military and civilian personnel
                    by the end of fiscal year 2005. The organizational structure will include
                    six divisions:

                             Joint Operations, Defense Agencies, and Service Inspectors
                             General
                             Reserve Forces
                             Homeland Defense
                             Safety and Operational Health
                             Engineering and Environment
                             Special Projects and Technical Assistance

                    These divisions are designed to provide broad subject area expertise to
                    address the goals of the President’s Management Agenda, General
                    Accountability Office High Risk Areas, the Secretary of Defense’s List of
                    Top Ten Priorities, the DoD IG’s Strategic Plan and requests from
                    Congress, DoD officials, and the Inspector General..

 Audit Policy and   In accordance with the Inspector General Act of 1978, as amended in
 Oversight          1982, the Office of Assistant Inspector General for Audit Policy and
 Directorate        Oversight (APO) provides policy direction and oversight for audits
                    performed by over 6,500 DoD auditors, ensures appropriate use of non-
                    federal auditors and their compliance with auditing standards and ensures
                    that contracting officials comply with statutory and regulatory
                    requirements when resolving contract audit report recommendations in
                    accordance with DoD Directive 7640.2, “Policy for Followup on Contract
                    Audit Reports.” During the reporting period, APO issued or participated




                                          36
Semiannual Report for Transmission to the Congress                                           Chapter Two




                            in oversight, quality control, special assistance reviews and Hotline
                            reviews, as follows, and completed several other significant actions.

                                  •   Quality Control Review of the Assistant Inspector General for
                                      Audits of the Inspector General, National Reconnaissance
                                      Office (D2004-6-005, June 10, 2004).

                                  •   Oversight Review of Naval Sea Systems Command Contract
                                      Audit followup Process (D-2004-6-006, July 8, 2004).

                                  •   Quality Control Review of PricewaterhouseCoopers, LLP and
                                      the Defense Contract Audit Agency (DCAA), Office of
                                      Management and Budget Circular A-133 Audit Report of the
                                      Institute for Defense Analyses (IDA), Fiscal Year Ended
                                      September 28, 2001 (D-2004-6-007, July 16, 2004).

                                  •   Followup Review of the Military Department Audit Agencies
                                      Peer Review (D-2004-6-008, August 3, 2004).

                            Other significant actions include:

                                  •   Fourteen (14) letters to not for profit organizations on the results
                                      of initial reviews of the audit reports done in accordance with
                                      the Single Audit Act and OMB Circular A-133.

                                  •   Comments on changes to the Federal Acquisition Regulation
                                      (FAR) and the Defense Federal Acquisition Regulation
                                      Supplement (DFARS), such as:

                                      »   DFARS Case No. 2003-D012, “Improper Business
                                          Practices and Contractor Qualifications Relating to
                                          Debarment, Suspension, and Business Ethics,”
                                          recommending legal and regulatory requirements be
                                          included that addresses Truth in Negotiations Act and the
                                          False Claims Act.

                                      »   DFARS Case No. 2003-D060, “Threshold for Small
                                          Business Specialist Review” recommending revisions to
                                          include verification by small business specialists that the
                                          small businesses are not acting as brokers.




                                                     37
Chapter Two                                       Semiannual Report for Transmission to the Congress




                             •   Addressing auditor or audit organization independence in
                                 memoranda to the following officials or organizations:

                                 »   Chief, National Guard Bureau (September 28, 2004) on the
                                     organizational placement of the National Guard Bureau
                                     internal review organization.

                                 »   Center for Naval Analysis (June 11, 2004) on questions
                                     related to audit disclaimers on independence.

                                 »   Deputy Under Secretary of Defense (Civilian Personnel
                                     Policy) (August 13, 2004) nonconcurring with the draft
                                     DoD policy “Certification for DoD Professional Accounting
                                     Positions” because it impinges on IG statutory authority and
                                     impairs independence of the OIG DoD as required by the
                                     Government Auditing Standards.

                                 »   General Counsel of the Navy (May 5, 2004) on the
                                     proposed Oversight Planning Board Charter and safeguards
                                     for independence of the Naval Audit Service.

 Investigative Policy   The Investigative Policy and Oversight Directorate (IPO) evaluates the
 and Oversight          performance and develops/implements policy for the DoD law
 Directorate            enforcement community and the non-criminal investigative offices of the
                        DoD. The IPO also manages the IG Subpoena Program for the Defense
                        Criminal Investigative Organizations (DCIOs) and administers the DoD
                        Voluntary Disclosure Program, which allows contractors a means to
                        report potential civil or criminal fraud matters.

 DoD Hotline            The OIG DoD Hotline continues its primary mission of providing a
                        confidential and reliable means for DoD civilian and contractor
                        employees, military service members, and the public to report fraud,
                        waste, mismanagement, abuse of authority, threats to homeland security
                        and leaks of classified information. During this reporting period, the
                        Defense Hotline received 10,049 contacts from the public and members of
                        the DoD community, initiated 1433 investigations and closed 1095 cases.
                        Investigations initiated by the Defense Hotline returned $637,958 to the
                        Federal Government during this reporting period. We received 36
                        Congressional inquiries and 114 investigative referrals from the
                        Government Accountability Office (GAO) to include coordination with
                        the GAO regarding potential post-government employment violations. In
                        addition, the Hotline responded to 786 requests from DoD contractors and
                        the military services for Defense Hotline fraud, waste, and abuse posters.


                                             38
Semiannual Report for Transmission to the Congress                                        Chapter Two




OFFICE OF                   The Office of Communications and Congressional Liaison (OCCL), is a
COMMUNICATIONS              staff element of the immediate Office of the Inspector General. This office
AND                         supports the OIG by serving as the contact for communications to and
CONGRESSIONAL               from Congress, and by serving as the OIG Public Affairs Office. OCCL
LIAISON                     also includes the Freedom of Information Act/Privacy Act Office and
                            Strategic Planning. In addition, OCCL provides staff support and serves
                            as the liaison for the OIG to the President’s Council on Integrity and
                            Efficiency (PCIE) and the Defense Council on Integrity and Efficiency
                            (DCIE). The Inspector General established the DCIE in 2002 to ensure
                            effective coordination and cooperation between and among the activities
                            of the OIG and Defense agencies.

 Comments on                Section 4(a) of the Inspector General Act requires the Inspector General
 Legislation /              “to review existing and proposed legislation and regulations relating to
 Testimony                  the program and operations of [the Department of Defense]” and to make
                            recommendations “concerning the impact of such legislation or
                            regulations on the economy and efficiency in the administration of
                            programs and operations administered or financed by [the Department] or
                            the prevention and detection of fraud and abuse in such programs and
                            operations.” The OIG routinely receives legislation for review that has
                            been referred to the Department of Defense for comment. OIG comments
                            provided during the reporting period included the following:

                                  •   S. 2023, A Bill to Limit the Department of Defense Contracting
                                      with Firms Under Investigation by the Inspector General of the
                                      Department of Defense. The OIG did not support the proposal
                                      for several reasons including: it does not afford due process to
                                      contractors, it would require divulging information regarding
                                      ongoing investigations, other procedures exist to exclude
                                      contractors from doing business with the government when they
                                      willfully fail to perform in accordance with a contract, and it
                                      does not address investigations initiated by other investigative
                                      organizations.

                                  •   An amendment to S. 2400, the Department of Defense
                                      Authorization Bill for Fiscal Year 2005, broadening the scope
                                      under Title 10, Unites States Code, Section 1034, “Military
                                      Whistleblower Protection,” of individuals authorized to receive
                                      protected communications from military members. The OIG
                                      supported the amendment but recommended that it apply to
                                      disclosures made after the date of enactment.




                                                     39
Chapter Two                              Semiannual Report for Transmission to the Congress




              Additionally, the Office of the Inspector General provides information to
              Congress by participating in congressional hearings.

              On April 28, 2004, the Assistant Inspector General for Contract
              Management and the Program Director of the Data Mining Directorate
              testified before the Senate Committee on Governmental Affairs regarding
              the use of purchase cards in the Department of Defense. Their testimony
              discussed the findings of three OIG audit reports issued in fiscal years
              2003 and 2004 that identified management control problems with the use
              of purchase cards. Overall, the Department of Defense has taken
              aggressive action to improve the purchase card program; however, the
              audits found that better implementation and oversight of management
              controls at the activity level is still needed. Additionally, the testimony
              discussed initiatives taken by the OIG to pioneer the use of data mining
              techniques in the Department of Defense to identify potential misuse of
              purchase cards.

              On July 8, 2004, the Deputy Inspector General for Auditing testified
              before the Financial Management, the Budget, and International Security
              Subcommittee of the Senate Committee on Governmental Affairs
              regarding the FY 2003 DoD Financial Statements. The Inspector General
              also submitted a prepared statement for the hearing. The Deputy Inspector
              General discussed the impediments that have prevented the Department
              from receiving an unqualified opinion on its financial statements. He also
              provided the Subcommittee information on the efforts the Department is
              making to improve financial systems and business process and the steps
              the OIG is taking to provide the audit coverage required to attain a
              favorable opinion on the Department’s financial statements.

              On September 21, 2004, House Committee on Armed Services and the
              Commission on Security and Cooperation in Europe (the Helsinki
              Commission) held a joint forum entitled “Enforcing U.S. Policies Against
              Trafficking in Persons: How is the U.S. Military Doing?” The Inspector
              General participated in the forum and provided testimony on the
              importance of DoD efforts to combat trafficking in persons. He provided
              copies of two recent reports issued by the OIG that assessed efforts to
              combat trafficking in persons in Korea and in Bosnia-Herzegovinia and
              Kosovo. The Inspector General emphasized the leading role Congress has
              taken by enacting legislation such as the Victims of Trafficking and
              Violence Protection Act of 2000 and its 2003 reauthorizations, and the
              strong support of the Secretary of Defense in implementing a “zero
              tolerance” approach to trafficking in persons.




                                    40
Semiannual Report for Transmission to the Congress                                    Chapter Two




                            The OIG also regularly reviews new and revised regulations proposed by
                            the Department of Defense. During this reporting period the OIG
                            reviewed 152 draft issuances or re-issuances of DoD directives,
                            instructions, manuals and other policy guidance.




                                                     41
Chapter Two                   Semiannual Report for Transmission to the Congress




              This page left blank intentionally




                         42
 Appendix A                                                Semiannual Report for Transmission to the Congress
                             APPENDIX A*
      REPORTS ISSUED BY CENTRAL DOD INTERNAL AUDIT ORGANIZATIONS
   Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
   consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
   DoD.

   Copies of reports may be obtained from the appropriate issuing office by calling:

                   OIG DoD                                           Army Audit Agency
                   (703) 604-8937                                    (703) 681-9863

                   Naval Audit Service                               Air Force Audit Agency
                   (202) 433-5525                                    (703) 696-8027
                                                                     (703) 696-8014

             Summary of Number of Reports by Management Challenge Area
                          April 1, 2004 - September 30, 2004

                                                IG, DoD             Military Depts.                    Total
 Joint Warfighting and Readiness                     2                        6                           8
 Homeland Defense                                    1                       11                          12
 Human Capital                                       4                       14                          18
 Information Technology                              9                       12                          21
 Management
 Streamlined Acquisition Process                    16                       45                          61
 Financial Management                               12                       66                          78
 Health Care                                         3                       11                          14
 Logistics                                           4                       24                          28
 Infrastructure and Environment                      1                       11                          12
 Base Realignment and Closure**                      -                        4                           4
 Other                                               -                        1                           1
 Total                                              52                       205                        257
  For information on intelligence-related reports, including those issued by other Defense agencies, refer to the
  classified annex to this report.
 * Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C.,
   Appendix 3, Section 5(a)(6) (See Appendix B).

** In accordance with the Under Secretary of Defense of Acquisition, Technology, and Logistics/Chairman,
Infrastructure Steering Group policy memorandum “Transformation Through Base Realignment and Closure
(BRAC 2005) Policy Memorandum One--Policy, Responsibilities, and Procedures,” April 16, 2003, BRAC-
related information will not be released to the public until the Secretary of Defense forwards his
recommendations to the 2005 BRAC Commission on May 16, 2005. In addition, BRAC-related reports are
exempt from release under section 552 (b) (5), title 5, United States Code, “Freedom of Information Act,”
and DoD Directive 5400.7, “DoD Freedom of Information Act Program,” September 1998, (Exemption
Number 5, paragraph C3.2.1.5).

                                                          43
Semiannual Report for Transmission to the Congress                                       Appendix A

                                                                      N-2004-0066 Research on the
 JOINT WARFIGHTING                 HOMELAND DEFENSE                   Oversight of Intelligence
 AND READINESS                                                        Programs and Sensitive
                                                                      Activities within the Department
                                   IG DoD                             of the Navy (CLASSIFIED)
 IG DOD                            D-2004-0066 Report on              (7/21/04)
 D-2004-0082 DoD Installation      Allegations Concerning
                                   Personnel Background               N-2004-0071 Department of the
 Disaster Preparedness and
                                   Investigations and Clearances at   Navy Anti-Terrorism Risk
 Consequence Management in
                                   the Space and Naval Warfare        Assessment Management
 the U.S. European Command
                                   Systems Command, Information       Approach for Navy Region Mid-
 (CLASSIFIED) (5/24/04)
                                   Technology Center (FOR             Atlantic (8/13/04)
 D-2004-0091 Management of         OFFICIAL USE ONLY)
 Network Centric Warfare           (4/9/04)                           Air Force Audit Agency
 Within the Department of                                             F-2004-0006-FD3000 Enlisted
 Defense (FOR OFFICIAL USE         Army Audit Agency                  Intelligence Personnel
 ONLY) (6/22/04)                   A-2004-0291-FFC Security of        (8/5/04)
                                   Civil Works Water Resources
 Army Audit Agency                                                    F-2004-0008-FD3000
                                   Infrastructure, U.S. Army
                                                                      Weapons of Mass Destruction
 A-2004-0526-FFF Operational       Engineer District, Seattle
                                                                      Emergency Response
 Facility Requirements Rules and   (5/14/04)
                                                                      Equipment (FOR OFFICIAL
 Modification Tables of
                                   A-2004-0514-FFC Security of        USE ONLY) (9/7/04)
 Organization and Equipment
 Authorizations (9/30/04)          Civil Works Water Resources
                                                                      F-2004-0007-FD3000 Air
                                   Infrastructure, U.S. Army
                                                                      Force Homeland Security
 Naval Audit Service               Engineer District, Nashville
                                                                      Operations (9/8/04)
                                   (9/27/04)
 N-2004-0061 Navy Range
 Operations Support Funding        Naval Audit Service
 (6/21/04)                                                            HUMAN CAPITAL
                                   N-2004-0042 Emergency
 N-2004-0077 Navy Optimal          Action Plans at Naval Criminal
 Manning (9/22/04)                 Investigative Service Facilities   IG DoD
                                   (CLASSIFIED) (4/29/04)             D-2004-0071 Strategic
 Air Force Audit Agency                                               Management of Human Capital
                                   N-2004-0047 Chemical and           Reporting (4/14/04)
 F-2004-0003-FD3000                Biological Defense Program
 Memorandum Report, Air Force      Requirements and Sustainment
 Common Helicopter                                                    D-2004-0073 Public-Private
                                   (5/12/04)                          Competition for the Base
 Replacement Study (4/1/04)
                                                                      Operating Support Functions at
                                   N-2004-0052 Department of the      Picatinny Arsenal, New Jersey
 F-2004-0004-FD3000 Space          Navy Top Secret/Sensitive
 Personnel in Air and Space                                           (4/22/04)
                                   Compartmented Information
 Operations Centers (4/12/04)      Requirements Process (5/21/04)     D-2004-0086 Management of
 F-2004-0005-FD3000 Medical                                           Marine Corps Enlisted
                                   N-2004-0062 Naval Criminal         Personnel Assignments in
 Readiness Reporting               Investigative Service Special
 (5/10/04)                                                            Support of Operation Iraqi
                                   Operations Fund                    Freedom (6/16/04)
                                   (CLASSIFIED) (7/7/04)
                                                                      D-2004-0088 Analysis of the
                                                                      Defense Finance and
                                                                      Accounting Service Military
                                                                      Retired and Annuitant Pay
                                                                      Sourcing Options (6/16/04)




                                                 44
Appendix A                                      Semiannual Report for Transmission to the Congress


Army Audit Agency                Naval Audit Service               D-2004-0098 Status of the
                                                                   General Accounting Office and
A-2004-0246-IMH Followup         N-2004-0036 Military              U.S. Army Audit Agency
Audit of Reengineering           Personnel Support for Supply      Recommendations for the U.S.
Overhead Support for Morale,     Administration and Operations     Army Corps of Engineers
Welfare and Recreation           Within the Marine Corps           (7/23/04)
Activities, U.S. Army            (4/12/04)
Community and Family Support                                       D-2004-0114 The Followup on
Center (4/14/04)                 N-2004-0040 Department of the     the Government Accountability
                                 Navy’s Strategic Information      Office and U.S. Army Audit
A-2004-0121-FFF Followup         Technology Planning for           Agency Recommendations for
Audit of Advanced Individual     Human Resources (4/15/04)         the U.S. Army Corps of
Training Courses, U.S. Army                                        Engineers (FOR OFFICIAL
Signal Center, Fort Gordon,      N-2004-0049 Accounting for
                                 Major Headquarters Activities’    USE ONLY) (9/21/04)
Georgia (5/3/04)
                                 Contractor Personnel (5/14/04)    D-2004-0115 The Followup on
A-2004-0211-FFF Army                                               the Government Accountability
Working Capital Fund Supply      Air Force Audit Agency
                                                                   Office and U.S. Army Audit
Management Staffing Model        F-2004-0004-FD4000 Air            Agency Recommendations for
Prototype, U.S. Army Aviation    Force Aid Society (7/21/04)       the U.S. Army Corps of
and Missile Command                                                Engineers (FOR OFFICIAL
(5/7/04)                         F-2004-0005-FD4000 Officer        USE ONLY) (9/21/04)
                                 Accessions Program
A-2004-0282-IMO DOD              (7/23/04)                         D-2004-0116 Information
Support to the 2001 National                                       Security Weaknesses Reported
Boy Scout Jamboree (5/7/04)                                        by Major Oversight
                                 INFORMATION                       Organizations from August 1,
A-2004-0272-FFF Followup
Audit of Army National Guard     TECHNOLOGY                        2003, through July 31, 2004
Bonus Programs (5/25/04)         MANAGEMENT                        (FOR OFFICIAL USE ONLY)
                                                                   (9/23/04)
A-2004-0416-IMO Revenues
and Expenses for the 2003 Army   IG DoD                            D-2004-0117 Defense Hotline
Birthday Ball (7/21/04)                                            Allegation Concerning the
                                 D-2004-0067 Implementation        Collaborative Force-Building,
                                 of the Federal Information        Analysis, Sustainment, and
A-2004-0471-FFF                  Security Management Act for
Management of Reserve                                              Transportation System (9/24/04)
                                 FY 2003 at Selected Military
Component's Non-Participants
(9/9/04)
                                 Treatment Facilities (FOR         Army Audit Agency
                                 OFFICIAL USE ONLY)
                                 (4/8/04)                          A-2004-0216-FFB Information
A-2004-0503-AMW Followup                                           Systems Security Material
Report, U.S. Army Audit          D-2004-0068 Global Command        Weakness, Chief Information
Agency Report: AA 02-103,        and Control System - Korea        Officer/G-6 (4/8/04)
Workers' Compensation, Rock      (CLASSIFIED) (4/6/04)
Island Arsenal (9/14/04)                                           A-2004-0273-AMI Intelligence
                                 D-2004-0074 Reliability of the    Contingency Funds, United
A-2004-0447-FFF Followup         Automated Cost Estimating         States Forces Central Command
Audit of Delayed Entry Program   Integrated Tools Software         (CLASSIFIED) (5/4/04)
Management, U.S. Army            Model (4/23/04)
Recruiting Command, Fort                                           A-2004-0276-AMI Department
Knox, Kentucky (9/24/04)         D-2004-0081 Reporting of DoD      of the Army Support Program
                                 Capital Investments for           (CLASSIFIED) (5/5/04)
                                 Information Technology
                                 (5/7/04)




                                               45
Semiannual Report for Transmission to the Congress                                        Appendix A


A-2004-0301-AMI Intelligence                                         D-2004-0104 Purchase Card
Contingency Funds, U. S. Army     STREAMLINED                        Use and Contracting Actions at
Intelligence and Security         ACQUISITION PROCESS                the U.S. Army Corps of
Command (CLASSIFIED)                                                 Engineers, Louisville District
(5/28/04)                                                            (7/27/04)
                                  IG DoD
A-2004-0315-AMI Followup                                             D-2004-0108 Implementation
                                  D-2004-0069 The NATO
Audit of Recommendation in                                           of the DoD Management
                                  AWACS Mid-Term
U.S. Army Audit Agency                                               Control Program for Air Force
                                  Modernization Program “Global
Report AA02-118, Secure                                              Acquisition Category II and III
                                  Solution” (4/14/04)
Environment Contracting                                              Programs (8/16/04)
(CLASSIFIED) (6/17/04)            D-2004-0070 Small Business
                                                                     D-2004-0109 Implementation
                                  Administration Section 8(a)
A-2004-0364-AMI Army                                                 of the DoD Management
                                  Program Contracting Procedures
Support Program                                                      Control Program for Navy
                                  at the Defense Supply Center,
(CLASSIFIED) (6/24/04)                                               Acquisition Category II and III
                                  Columbus (4/12/04)
                                                                     Programs (8/17/04)
A-2004-0339-FFB Army's
                                  D-2004-0078 Summary Report
Implementation of DOD                                                D-2004-0110 The Military
                                  on the Military Departments'
Enterprise Software Initiative                                       Departments' Implementation of
                                  Transition of Advanced
(6/25/04)                                                            Performance-Based Logistics in
                                  Technology Programs to
                                                                     Support of Weapon Systems
A-2004-0499-FFB Resource          Military Applications (4/29/04)
                                                                     (8/23/04)
Control Process for
                                  D-2004-0083 Management of
Programmed Information                                               D-2004-0111 Contracts
                                  the Centrally Billed Travel Card
Technology Investments                                               Awarded by the Defense Threat
                                  Program at Defense Agencies
(9/29/04)                                                            Reduction Agency in Support of
                                  (5/24/04)
                                                                     the Cooperative Threat
Naval Audit Service               D-2004-0089 Acquisition of the     Reduction Program (8/25/04)
N-2004-0050 The Navy’s            MH-47G Helicopter Service
                                                                     D-2004-0112 Undefinitized
Management of Personal            Life Extension Program
                                                                     Contractual Actions (8/30/04)
Computer Inventory Afloat         (6/14/04)
(5/18/04)                                                            D-2004-0113 Acquisition of the
                                  D-2004-0093 Acquisition and
                                                                     EA-6B Improved Capability III
N-2004-0063 Information           Management of Specialized
                                                                     Program (8/31/04)
Security – Operational Controls   Shipping and Unit-Owned
at Naval Aviation Depots          Containers and Related             Army Audit Agency
(7/9/04)                          Accessories (6/30/04)
                                                                     A-2004-0232-AMA FY 03
N-2004-0072 Information           D-2004-0097 The Central Test       Followup of Administering
Security – Operational Controls   and Evaluation Investment          Service Contracts - Dining
at Naval Air Systems Command      Program (6/30/04)                  Facility (Audit Report AA 01-
Headquarters and Naval Air                                           366), U.S. Army Aviation and
Warfare Centers (8/16/04)         D-2004-0102 Contracting for        Missile Command, Redstone
                                  and Performance of the C-130J      Arsenal, Alabama (4/1/04)
Air Force Audit Agency            Aircraft (7/23/04)
                                                                     A-2004-0234-FFF Contract
F-2004-0006-FB4000                D-2004-0103 Contract No.           Issues (4/7/04)
Visibility of Air Force           N00024-02-C-6165 for
Information Technology            Consulting Services at the Naval
Resources (5/4/04)                Shipbuilding, Conversion, and
                                  Repair Facility (8/2/04)




                                                 46
Appendix A                                          Semiannual Report for Transmission to the Congress


A-2004-0248-AMA FY 03               A-2004-0337-IMT                    A-2004-0490-IMT State Sales
Followup of Closed Audit            Performance of the Post-           Taxes (9/9/04)
Recommendations - Best              Competition Most Efficient
Practices for Using Award Fees      Organization for the Directorate   A-2004-0491-IMT Contract
(Audit Report AA 01-169),           of Logistics, Fort Drum, New       Administration for the Logistics
AMCOM; Ofc of the PEO,              York (6/14/04)                     Support Services Contract, Fort
Tactical Missiles; and Ofc of the                                      Bragg, North Carolina
PEO, Air and Missile Defense        A-2004-0342-AMA Fee                (9/10/04)
(4/14/04)                           Arrangement Plan for System
                                    Development and                    A-2004-0532-IMT Contract
A-2004-0250-AMM Tactical            Demonstration--Future Combat       Administration for the
Software Maintenance, Office of     Systems, Office of the Program     Directorate of Engineering and
the Program Executive Officer,      Manager, Unit of Action            Logistics Support Contract, Fort
Tactical Missiles and U.S. Army     (6/21/04)                          Lee, Virginia (9/29/04)
Aviation and Missile Research,
Development and Engineering         A-2004-0347-AMM Tactical           A-2004-0519-AMA Managing
Center, Redstone Arsenal,           Software Maintenance, Office of    the Army's Ammunition
Alabama (4/19/04)                   the Program Executive Officer,     Mission, Office of the Program
                                    Ground Combat Systems,             Executive Officer, Ammunition,
A-2004-0221-FFB Biometrics          Warren, Michigan (6/29/04)         Picatinny Arsenal, New Jersey
Management Office Contracts                                            and U.S. Army Joint Munitions
(4/23/04)                           A-2004-0389-FFP Army               Command, Rock Island Arsenal,
                                    Travel Card Program, Eighth        Illinois (9/30/04)
A-2004-0264-AML Use of              U.S. Army (7/20/04)
Accomodation Checks, South                                             A-2004-0530-AMA Contract
Carolina Army National Guard,       A-2004-0394-IMT                    Advisory and Assistance
Columbia, South Carolina            Perfromance of the Post-           Services (9/30/04)
(4/29/04)                           Competition Most Efficient
                                    Organization for the               Naval Audit Service
A-2004-0270-IMT Contract            Directorates of Logistics and      N-2004-0043 The MK 53
Administration for the              Public Works, Fort                 Decoy Launching System
Directorate of Base Operations      Leavenworth, Kansas (7/19/04)      (5/3/04)
Support Contract, Fort Knox,
Kentucky (5/5/04)                   A-2004-0400-AMA Followup           N-2004-0044 Department of the
                                    on the Audit of Controls for the   Navy Entertainment Motion
A-2004-0295-AMI                     International Merchant Purchase    Picture Program (5/5/04)
Coordinating Requirements for       Authorization Card Program,
Special Access Programs, Site A     U.S. Army Tank-Automotive          N-2004-0046 Reporting of
(5/12/04) (CLASSIFIED)              and Armaments Command              Contracted Advisory and
                                    (7/23/04)                          Assistance Services (5/12/04)
A-2004-0296-AMI
Coordinating Requirements for       A-2004-0438-AML                    N-2004-0051 The AN/SPY-1D
Special Access Programs, Site B     Definitization of Task Orders -    (V) Upgrade Program (5/19/04)
(5/12/04) (CLASSIFIED)              Audit of Logistics Civil
                                    Augmentation Program               N-2004-0053 Department of the
A-2004-0244-FFB Information         (8/12/04)                          Navy Integrated Aircraft Engine
Technology Agency Contract                                             Management and Budgeting
Management (5/25/04)                A-2004-0481-AMW Followup           Process (5/26/04)
                                    Review of Government
A-2004-0313-FFP Acquisition         Purchase Cards, Tobyhanna          N-2004-0056 Independent
Management Controls, Eighth         Army Depot (8/31/04)               Review of Southeastern Retail
U.S. Army, U.S. Army                                                   Supply Functions, Fleet and
Contracting Command-Korea,          A-2004-0443-AMA Unit Set           Industrial Supply Center,
and U.S. Army Contracting           Fielding Oversight and             Jacksonville, FL (6/3/04)
Agency (6/3/04)                     Guidance (9/1/04)


                                                   47
Semiannual Report for Transmission to the Congress                                      Appendix A


N-2004-0057 Earned Value           F-2004-0013-FC1000 Avon          D-2004-0085 DoD Costs of
Management for the Extended        Park Air Range FL, Range         Licensing Space-Related
Range Guided Munition              Operations, Civil Engineering,   Exports and Monitoring Satellite
Program (6/16/04)                  and Support (A-76 Direct         Launches (5/28/04)
                                   Conversion) (8/6/04)
N-2004-0067 Marine Corps                                            D-2004-0092 Corp of
Most Efficient Organizations       F-2004-0005-FC3000 Program       Engineers Equipment Reporting
Established as a Result of A-76    Office Preparation for the KC-   on Financial Statements for FY
Studies (7/22/04)                  767A Aerial Tanker Acquisition   2003 (6/22/04)
                                   (8/24/04)
N-2004-0068 Independent                                             D-2004-0099 Reliablity of the
Review of Public Works Center      F-2004-0006-FC3000 Pricing       National Security Agency FY
Pearl Harbor, Contract Support     of TF-39 and T-56 Contract       2003 Financial Statements
Services, Pearl Harbor, HI         Modifications (8/24/04)          (CLASSIFIED) (7/15/04)
(7/23/04)
                                   F-2004-0007-FC3000 Air Force     D-2004-0100 Promptness of FY
N-2004-0073 Independent            Government Purchase Card         2004 Fourth Quarter DoD
Review of Industrial               Internal Co (9/9/04)             Payments to the Department of
Maintenance Services, Naval                                         the Treasury for District of
Air Depot, Cherry Point, NC                                         Columbia Water and Sewer
(8/16/04)                          FINANCIAL                        Services (7/15/04)
                                   MANAGEMENT
N-2004-0074 Independent                                             D-2004-0106 Selected Controls
Review of Personnel Support                                         Over the Army Fund Balance
Detachment, Recruit Training       IG DoD                           with Treasury at Defense
Center Great Lakes, IL (8/19/04)                                    Finance and Accounting Service
                                   D-2004-0072 Promptness of FY
                                                                    Indianapolis (8/5/04)
Air Force Audit Agency             2004 Third Quarter DoD
                                   Payments to the Department of    D-2004-0107 U.S Army Corps
F-2004-0007-FC1000 Wright-         the Treasury for District of     of Engineers Financial
Patterson AFB OH,                  Columbia Water and Sewer         Information Imported into the
Environmental Management (A-       Services (4/15/04)               Defense Departmental
76 Cost Comparison) (5/5/04)                                        Reporting System - Audited
                                   D-2004-0075 Reliability of the
F-2004-0008-FC1000 Air                                              Financial Statements (8/5/04)
                                   FY 2003 Financial Statements
Combat Command, Langley            for the National Geospatial-     D-2004-0118 Army General
AFB VA, Human Resources/           Intelligence Agency              Fund Controls Over Abnormal
Multiple Personnel Functions       (CLASSIFIED) (4/23/04)           Balances for Field Accounting
(A-76 Direct Conversion)                                            Activities (9/28/04)
(5/21/04)                          D-2004-0079 Reliability of the
                                   Defense Intelligence Agency FY   Army Audit Agency
F-2004-0009-FC1000 Edwards         2003 Financial Statements
AFB Personnel Systems              (CLASSIFIED) (4/29/04)           A-2004-0222-AMA
Management (A-76 Cost                                               Ammunition Pricing Practices,
Comparison) (6/8/04)               D-2004-0080 Environmental        Office of the Program Executive
                                   Liabilities Required To Be       Officer, Ammunition, Picatinny
F-2004-0010-FC1000 Wright-         Reported on Annual Financial     Arsenal, New Jersey and U.S.
Patterson AFB Awards,              Statements (5/5/04)              Army Joint Munitions
Records, and Decorations (A-76                                      Command, Rock Island Arsenal,
Direct Conversion) (7/23/04)       D-2004-0084 Antideficiency       Illinois (4/2/04)
                                   Act Investigation of the
F-2004-0011-FC1000                 Research, Development, Test
Spangdahlem Aircraft Wash          and Evaluation, Defense-Wide,
Rack (A-76 Direct Conversion)      Appropriation Account 97
(8/6/04)                           FY1989/1990 0400 (5/28/04)



                                                 48
Appendix A                                        Semiannual Report for Transmission to the Congress


A-2004-0205-FFG Validation         A-2004-0110-FFB Federal           A-2004-0378-AMA
of Completed Tasks for Interest    Oversight of the National Guard   Realignment Phase 2 Field
Payable--Army Chief Financial      (5/12/04)                         Operating Agencies, U.S. Army
Officers Strategic Plan                                              Inspector General Agency
(4/6/04)                           A-2004-0294-AMA                   (6/30/04)
                                   Realignment Phase 2 Field
A-2004-0225-AMW                    Operating Agencies, U.S. Army     A-2004-0369-AMW
Attestation Review of Selected     Test and Evaluation Command       Obligations for Requisitions,
Army Chief Financial Officers      (5/14/04)                         Standard Operations and
Strategic Plan Tasks--Army                                           Maintenance Army Research
Working Capital Fund (4/8/04)      A-2004-0298-AMA                   and Development System
                                   Realignment Phase 2, Field        (SOMARDS) (6/30/04)
A-2004-0245-FFG System             Operating Agencies, U.S. Army
Requirements--Installation         Logistics Transformation          A-2004-0338-IMH Army
Status Report (4/13/04)            Agency (5/14/04)                  Lodging Overhead Costs, Fort
                                                                     Jackson, South Carolina
A-2004-0263-AMW Followup           A-2004-0324-AMA                   (7/09/04)
of Selected Audit                  Realignment Phase 2 Field
Recommendations--Army              Operating Agencies, Office of     A-2004-0361-AMA
Working Capital Fund               the Chief of Public Affairs       Realignment Phase 2 Field
(4/21/04)                          (6/1/04)                          Operating Agencies, U.S. Army
                                                                     Acquisition Support Center and
A-2004-0265-AMA                    A-2004-0336-IMH Followup          U.S. Army Simulation, Training
Realignment Phase 2, Field         Audit of Financial Controls--     and Instrumentation Command
Operating Agencies, Office of      Golf Course Operations, Fort      (7/26/04)
the Chief of Legislative Liaison   Sam Houston, Texas (6/10/04)
(4/26/04)                                                            A-2004-0410-AMW
                                   A-2004-0349-AMA                   Acquisition and Financial File
A-2004-0236-FFG Review of          Realignment Phase 2 Field         Reconciliations, Office of the
the Army Management Control        Operating Agencies, Office of     Program Executive Officer,
Process (Fiscal Year 2003), U.S.   the Deputy Chief of Staff, G-3    Aviation (7/28/04)
Army Training and Doctrine         (6/25/04)
Command (5/5/04)                                                     A-2004-0431-AMW Validation
                                   A-2004-0346-FFG Validation        of the Army's Fund Balance
A-2004-0281-IMH Army               of Completed Tasks for            With Treasury, Defense Finance
Lodging Overhead Costs, Fort       Advances and Prepayments,         and Accounting Service
Lee, Virginia (5/7/04)             Army Chief Financial Officers     Columbus Center (8/3/04)
                                   Strategic Plan (6/25/04)
A-2004-0283-AMA                                                      A-2004-0317-FFG Army
Realignment Phase 2, Field         A-2004-0334-AMA                   Civilian Welfare Fund, Auditor's
Operating Agencies, U.S. Army      Realignment Phase 2, Field        Report (8/13/04)
War College (5/7/04)               Operating Agencies, U.S. Army
                                   Center of Military History        A-2004-0452-AMW
A-2004-0292-AMA Validating         (6/25/04)                         Unliquidated Obligations,
the Business Council Initiative                                      Office of the Project Manager,
on Rechargeable Batteries          A-2004-0359-FFG Review of         Cargo Helicopters (8/19/04)
(5/11/04)                          Army Management Control
                                   Process (FY 03), U.S. Army        A-2004-0445-AMA
A-2004-0293-AMA                    Intelligence Center, Fort         Realignment Phase 2 Field
Realignment Phase 2 Field          Huachuca (6/29/04)                Operating Agencies, U.S. Army
Operating Agencies, Office of                                        Contracting Agency (8/20/04)
The Judge Advocate General
(5/11/04)




                                                 49
Semiannual Report for Transmission to the Congress                                       Appendix A


A-2004-0449-IMH Followup          A-2004-0318-FFG Army              N-2004-0041 Logistics Feeder
Audit of Nonappropriated Fund     Civilian Welfare Fund, Internal   Systems Supporting Operating
Payroll, U.S. Army Community      Controls (9/20/04)                Materials and Supplies Data on
and Family Support Center                                           the Department of the Navy’s
(8/25/04)                         A-2004-0515-IMU Army              Fiscal Year 2002 Financial
                                  Management Control Process        Statements (4/27/04)
A-2004-0458-AMW                   (FY 04), U.S. Army, North
Unliquidated Obligations,         Atlantic Treaty Organization      N-2004-0045 Fiscal Year 2003
Office of the Project Manager,    (9/21/04)                         Implementation of the Federal
Apache Attack Helicopter                                            Managers’ Financial Integrity
(8/26/04)                         A-2004-0500-AMW                   Act at Selected Naval Activities
                                  Unliquidated Obligations,         (5/10/04)
A-2004-0463-FFC FY 03             Office of the Project Manager,
Supplemental Funds and Cash       Utility Helicopters (9/21/04)     N-2004-0048 Audit Trails
Flow (8/27/04)                                                      Related to Financial Reports
                                  A-2004-0504-AMW Selected          from Selected Navy Working
A-2004-0466-FFG Logistics         Financial Management Issues,      Capital Fund Activities
Modernization Program -           Pine Bluff Arsenal, Arkansas      (5/14/04)
Requirements Followup             (9/21/04)
(9/2/04)                                                            N-2004-0054 Fiscal Year 2002
                                  A-2004-0506-IMT Cooperative       Department of the Navy General
A-2004-0473-FFG Property          Agreements, California Army       Fund Reimbursable
Book and Unit Supply Enhanced     National Guard and the U.S.       Transactions at Selected
System--Requirements              Property and Fiscal Office for    Activities (5/27/04)
Followup (9/8/04)                 California (9/24/04)
                                                                    N-2004-059 Liquidation of
A-2004-0486-FFC Followup          Naval Audit Service               Outstanding Travel Advances
Audit of Corps of Engineers                                         for U.S. Pacific FleetShips
Financial Management System,      N-2004-0035 Termination of
                                  Basic Allowance for Housing       (6/17/04)
General Application Controls
(9/9/04)                          for Navy Personnel Residing in    N-2004-0060 Termination of
                                  Government Housing in the         Basic Allowance for Housing
A-2004-0457-FFB FY 01 and         Jacksonville, FL Area (4/1/04)    for Navy Personnel Residing in
FY 02 Potential Antideficiency                                      Government Housing at
Act Violations, Colorado Army     N-2004-0037 Department of the
                                  Navy Travel Card                  Selected District of Columbia
National Guard (9/10/04)                                            and Maryland Activities
                                  Delinquencies and Outstanding
                                  Advances (4/12/04)                (6/17/04)
A-2004-0482-FFG Secretary of
Defense Executive Dining                                            N-2004-0064 United States/
Facility Fund FY 03 Financial     N-2004-0038 The Department
                                  of the Navy’s Fiscal Year 2003    United Kingdom Polaris Trust
Statements, Office of the                                           Fund (7/15/04)
Secretary of Defense (9/15/04)    General Fund and Working
                                  Capital Fund Consolidated         N-2004-0065 Internal Controls
A-2004-0513-IMU Army              Balance Sheet Line – Military     Over Basic Allowance for
Management Control Process        Retirement Benefits and Other     Housing in the San Diego, CA,
(FY 04), U.S. Army, Europe and    Employment Related Actuarial      Area, and Suspension of
Seventh Army (9/16/04)            Liabilities (4/13/04)             Government Debt for Navy
                                  N-2004-0039 Unliquidated          Personnel (7/19/04)
A-2004-0510-AMW Selected
Reimbursable Costs, Pine Bluff    Obligations for the Research,     N-2004-0070 Opinion on the
Arsenal, Arkansas (9/17/04)       Development, Test, and            United States/United Kingdom
                                  Evaluation, Navy Appropriation    Polaris/Trident Trust Fund
                                  (4/13/04)                         Financial Accounts (8/5/04)




                                                50
Appendix A                                         Semiannual Report for Transmission to the Congress


N-2004-0076 Termination of          2004-0094 Direct Care Medical     A-2004-0485-IMH Followup
Basic Allowance for Housing         Services Contracts (6/24/04)      Audit of Recommendation in
for Personnel Residing in Navy                                        Audit Report: A-2003-0002-
Housing at Selected Activities in   2004-0096 Controls Over           IMH, Madigan Army Medical
Washington State and California     Purchase Cards at Naval           Center, Tacoma, Washington
(9/7/04)                            Medical Center San Diego          (9/9/04)
                                    (6/29/04)
N-2004-0078 Naval Audit                                               A-2004-0502-IMH Followup
Service Opinion on Proposed         Army Audit Agency                 Audit of Recommendations in
Fiscal Year 2004 Statement of       A-2004-0256-IMH Followup          Audit Report: A-2003-0075-
Assurance (9/22/04)                 Issues--Military Treatment        IMH, Womack Army Medical
                                    Facility Downsizing and           Center, Fort Bragg, North
Air Force Audit Agency                                                Carolina (9/10/04)
                                    Healthcare for Soldiers at
F-2004-0004-FB2000                  Remote Locations, U.S. Army       A-2004-0288-IMU Dental
Aerospace Maintenance and           Medical Command (4/15/04)         Services Contracting in Europe,
Regeneration Center Business                                          Europe Regional Dental
System Controls (4/12/04)           A-2004-0348-IMU Third Party
                                    Collection Program, Europe        Command (9/28/04)
F-2004-0006-FD4000 Civilian         Regional Medical Command
                                                                      Air Force Audit Agency
Firefighter Pay and Leave           (6/18/04)
Practices (7/21/04)                                                   F-2004-0004-FD2000
                                    A-2004-0371-IMH Attestation       Obstetrics Care Marketing
F-2004-0012-FC1000 Saudi            Review of the Army Optical        (6/7/04)
Arabia F-15 (Peace Sun)             Fabrication Production Cost
Foreign Military Sales Contract     Estimate, U.S. Army Medical
and Financial Management            Command (7/6/04)                  LOGISTICS
(8/6/04)
                                    A-2004-0409-IMH Attestation
F-2004-0005-FB2000 Military         Review of the Estimate of         IG DoD
Personnel Centrally Managed         Prospective Private Sector Unit
                                                                      D-2004-0062 Interagency
Allotment - Fiscal Year 2004        Prices for Military Eyewear ,
                                                                      Review of Foreign National
Pay Records (8/24/04)               U.S. Army Medical Command
                                                                      Access to Export-Controlled
                                    (8/20/04)
F-2004-0004-FB1000 Air                                                Technology in the United States
Force Contract Debt (9/7/04)        A-2004-0470-IMH Followup          (4/16/04)
                                    Audit of Recommendations in
F-2004-0006-FB2000 System                                             D-2004-0077 Accountability
                                    Audit Report: A-2003-0286-
Controls for Reliability and                                          and Control of Materiel at the
                                    IMH, Martin Army Community
Maintainability Information                                           Marine Corps Logistics Base
                                    Hospital, Fort Benning, Georgia
System (9/27/04)                                                      Albany, Georgia (4/29/04)
                                    (8/27/04)
F-2004-0007-FD4000 Aviator                                            D-2004-0090 Defense Hotline
                                    A-2004-0469-IMH Followup
Continuation Pay (9/27/04)                                            Allegations Concerning C-130
                                    Audit of Recommendations in
                                                                      Aircraft Use in the U.S. Central
                                    Audit Report: A-2003-0001-
                                                                      Command Area of
                                    IMH, Martin Army Community
HEALTH CARE                         Hospital, Fort Benning, Georgia
                                                                      Responsibility (CLASSIFIED)
                                                                      (6/17/04)
                                    (8/27/04)
IG DoD                              A-2004-0472-IMU Medical
                                                                      D-2004-0095 Navy Controls
                                                                      Over Materiel Sent to Defense
2004-0087 DoD Management            Services Billing, Europe
                                                                      Reutilization and Marketing
of Pharmaceutical Inventory and     Regional Medical Command
                                                                      Offices (6/24/2004)
Processing of Returned              (8/31/04)
Pharmaceuticals (6/17/04)




                                                  51
Semiannual Report for Transmission to the Congress                                       Appendix A


Army Audit Agency                 A-2004-0444-AMM                    Air Force Audit Agency
                                  Sustainment Planning for
A-2004-0229-AMM                   Maintenance Support, U.S.          F-2004-0004-FC4000 Low
Organization and Funding, U.S.    Army Communications-               Speed Vehicle Management
Army Priority Air Transport       Electronics Command and            (4/26/04)
Detachment, Andrews Air Force     Office of the Product Manager,
Base, Maryland (4/05/04)                                             F-2004-0005-FC4000
                                  Warfighter Information             Contractor Assets and Price
A-2004-0237-AML Followup          Network – Tactical (8/10/04)       Controls (5/10/04)
Audit of Recommendation in        A-2004-0465-AMM
Audit Report A-2002-0423-                                            F-2004-0006-FC4000
                                  Sustainment Planning for           Indenture Relationship Impact
AML (4/08/04)                     Maintenance Support, Office of     on Secondary Item
A-2004-0224-FFP Operational       the Program Manager, Unit of       Requirements Computations
Projects--Summary, Eighth U.S.    Action (8/27/04)                   (5/21/04)
Army (4/08/04)                    A-2004-0511-AML Training           F-2004-0003-FC2000 A-10
A-2004-0269-IMT                   Resource Model Inputs (Price       Aircraft Engine (TF34-GE-100)
Ammunition and Small Arms,        and Credit), U.S. Army Tank-       Maintenance Support
California Army National Guard    automotive and Armaments           Operations (6/7/04)
(4/30/04)                         Command--Warren, Michigan
                                  (9/24/04)                          F-2004-0004-FC2000 Follow-
A-2004-0233-AMM Fixed-                                               up Audit, C-130 Aircraft
Wing Aircraft Maintenance         A-2004-0512-AML Training           Propeller Accountability
Contracts, U.S. Army Priority     Resource Model Inputs (Price       (6/7/04)
Air Transport Detachment,         and Credit), U.S. Army Tank-
Andrews Air Force Base,           automotive and Armaments           F-2004-0007-FC4000
Maryland (5/04/04)                Command, Rock Island, Illinois     Secondary Item Repair Budget
                                  (9/24/04)                          Prices (8/4/04)
A-2004-0261-FFG
Management Controls for           A-2004-0527-AML Training           F-2004-0008-FC4000
Wholesale Munitions               Resource Model Inputs (Price       Reporting of Lost and Stolen
Inventories, Integration of       and Credit, Missile Items), U.S.   Munitions (8/11/04)
Automatic Identification          Army Aviation and Missile
Technology (5/18/04)              Command, Redstone Arsenal,
                                  Alabama (9/27/04)                  INFRASTRUCTURE AND
A-2004-0333-AML Selected                                             ENVIRONMENT
Asset Holding Projects            A-2004-0528-AML Training
(6/08/04)                         Resource Model Inputs (Price
                                  and Credit, Aviation Items),       IG DoD
A-2004-0357-IMU                   U.S. Army Aviation and Missile
                                  Command, Redstone Arsenal,         D-2004-0101 Department of
Ammunition Accountability,
                                  Alabama (9/27/04)                  Defense Policies and Procedures
U.S. Army, Europe and Seventh
                                                                     to Implement the Rural
Army (7/09/04)
                                  A-2004-0538-AMM                    Development Act of 1972
A-2004-0433-AMW Logistics         Maintenance Issues Impacting       (7/23/04)
Modernization Program--           Training Resource Model Inputs
Production Support Processes,     (9/29/04)                          Army Audit Agency
U.S. Army Materiel Command                                           A-2004-0243-IMU Operation
(7/30/04)                         A-2004-0529-FFG Asset
                                                                     Enduring Freedom--Base Camp
                                  Visibility Of Military
                                                                     Construction and Master Plan
                                  Equipment During Conversions,
                                                                     (04/15/04)
                                  U.S. Army Communications-
                                  Electronics Command (9/30/04)




                                                 52
Appendix A                                         Semiannual Report for Transmission to the Congress


A-2004-0186-IMO Potable            A-2004-0448-IME Land Use           Air Force Audit Agency
Water and Wastewater Utility       Controls and Monitoring at
Systems Contract, Aberdeen         Formerly Used Defense Sites,       F-2004-0005-FB4000 2005
Proving Ground, Maryland           U.S. Army Corps of Engineers,      Base Realignment and Closure -
(4/27/04)                          Charleston District (8/18/04)      Installations Inventory (FOR
                                                                      OFFICIAL USE ONLY)
A-2004-0287-IME Maneuver           A-2004-0460-IMO Audit of           (4/12/04)
Area Training Equipment Site,      Barracks Requirements, Fort
Texas Army National Guard          Carson--Impact of 10th Special     F-2004-0007-FB4000 2005
(5/13/04)                          Forces Group, Fort Carson,         Base Realignment and Closure -
                                   Colorado (8/24/04)                 Installation Capacity Analysis
A-2004-0335-IME Land Use                                              Questionnaire (FOR OFFICIAL
Controls and Monitoring at         A-2004-0492-IMO Garrison           USE ONLY) (8/24/04)
Formerly Used Defense Sites,       Utilities and Energy Services,
U.S. Army Corps of Engineers       Fort Lewis, Washington             F-2004-0008-FB4000 Base
Savannah District (6/10/04)        (9/14/04)                          Realignment and Closure Data
                                                                      Collection System (FOR
A-2004-0365-FFP Energy                                                OFFICIAL USE ONLY)
Savings Performance Contract-      BASE REALIGNMENT                   (9/27/04)
Lighting Retrofit, U.S. Army       AND CLOSURE
Garrison, Alaska (7/2/04)
                                                                      OTHER
A-2004-0390-IMO Disposition        Naval Audit Service
Plans and Costs for the Old U.S.
Disciplinary Barracks, Fort        N-2004-0058 Base                   Naval Audit Service
Leavenworth, Kansas (7/9/04)       Realignment and Closure            N-2004-0055 Quality
                                   Optimization Methodology           Assurance Review of the Local
A-2004-0382-FFP Funding for        (FOR OFFICIAL USE ONLY)            Audit Function at U.S. Naval
the Operation and Maintenance      (6/16/04)                          Support Activity Bahrain
of the Okinawa Pipeline, U.S.                                         (6/01/04)
Army, Japan (7/13/04)

A-2004-0439-IMO Barracks
Requirements at Fort Carson,
Fort Carson, Colorado (8/06/04)




                                                  53
Appendix B                                             Semiannual Report for Transmission to the Congress



                                      APPENDIX B*
                       OIG DOD AUDIT REPORTS ISSUED CONTAINING
                      QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                                     Potential
                                                                                     Monetary
                                                                                     Benefits1
                            Audit Reports Issued
                                                                                   Funds Put to
                                                                                    Better Use
       D-2004-069 The NATO AWACS Mid-Term Modernization                              $21,000,000
       Program “Global Solution” (4/14/04)
       D-2004-077 Accountability and Control of Materiel at the Marine                4,080,000
       Corps Logistics Base Albany, Georgia (4/29/04)
       D-2004-093 Acquisition and Management of Specialilzed Shipping                137,423,719
       and Unit-Owned Containers and Related Accessories (6/30/04)
       Totals                                                                       $162,503,719
       1There
                were no OIG audit reports during the period involving questioned costs.



* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
Section 5(a)(6) (See Appendix A).




                                                      54
Semiannual Report for Transmission to the Congress                                                       Appendix C


                                             APPENDIX C*
                                         FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)

                                                                                                     Funds Put
                                    Status                                           Number           to Better
                                                                                                        Use1
 A. For which no management decision had been made by the                                  23            $44,227
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                         54            162,504
       Subtotals (A+B)                                                                     77            206,731
 C. For which a management decision was made during the reporting                          57             69,307
         period.
       (i)    dollar value of recommendations that were agreed to by
              management
              - based on proposed management action                                                         4,080
              - based on proposed legislative action
       (ii)   dollar value of recommendations that were not agreed to by                                 65,2272
              management
 D. For which no management decision has been made by the end of                           20            137,424
         the reporting period.

       Reports for which no management decision was made within 6
             months of issue (as of September 30, 2004).                                    13                  0
 1There  were no OIG DoD audit reports issued during the period involving “questioned costs.”
 2On
      four audit reports with total of potential funds put to better use of $52 million, management has agreed to
  take the recommended actions, but the amount of agreed monetary benefits cannot be determined until those
  actionas are completed.
 3
   OIG DoD Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker Aircraft,” issued March 29,
  2004, had no management decision as of September 30, 2004. Action to achieve a decision is on hold pending
  a Secretary of Defense decision on recapitalization of the tanker program, expected in November 2004.

*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                         55
Appendix D                                                Semiannual Report for Transmission to the Congress

                                            APPENDIX D
                             CONTRACT AUDIT REPORTS ISSUED1
                                           ($ in millions)
                            April 1, 2004 through September 30, 2004



                                    Reports             Amounts              Questioned          Funds Put to
     Type of Audit2
                                    Issued              Examined               Costs3             Better Use
 Incurred Costs, Ops                    14,747             $58,966.8               $855.4               $304.24
 Audits, Special Audits
 Forward Pricing                          5,510            $64,268.5                     --           $2,167.05
 Proposals
 Cost Accounting                          1,312                $935.6               $93.5                      --
 Standards
 Defective Pricing                          383               (Note 6)              $27.3                      --
 Totals                                 21,952            $124,170.9               $976.2              $2,471.2
 1This
        schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
  6 months ended September 30, 2004. Both “Questioned Costs” and “Funds Put to Better Use” represent
  potential cost savings. Because of limited time between availability of management information system data
  and legislative reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of
  reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
 2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

  defined as:
       Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that the
  costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense
  Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost audits are
  Operations Audits, which evaluate a contractor’s operations and management practices to identify
  opportunities for increased efficiency and economy; and Special Audits, which include audits of terminations
  and claims.
         Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
  contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
  by definitized contracts.
        Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes to
  disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
  noncompliance with a CAS regulation.
       Defective Pricing - A review to determine whether contracts are based on current, complete, and accurate
  cost or pricing data (the Truth in Negotiations Act).
 3
  Questioned costs represent costs that DCAA has questioned because they do not comply with rules,
  regulations, laws, and/or contractual terms.
 4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

  that funds could be used more effectively if management took action to implement cost reduction
  recommendations.
 5Represents potential cost reductions that may be realized during contract negotiations.
 6Defective pricing dollars examined are not reported because the original value was included in the audits

  associated with the original forward pricing proposals.




                                                         56
Semiannual Report for Transmission to the Congress                                                        Appendix E


                                 APPENDIX E
      STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                                ($ in millions)
                      Period ending September 30, 2004



                                   Number of                  Costs
                                    Reports                 Questioned                 Disallowed Costs6

Open Reports:

     Within Guidelines2                       261                    $243.3                                  N/A7

     Overage, greater than 6                  225                    $627.5                                  N/A
     months3
     Overage, greater than                    223                    $490.5                                  N/A
     12 months4

     In Litigation5                           144                  $2,263.7                                  N/A

Total Open Reports                            853                  $3,625.0                                  N/A
Closed Reports                                323                    $430.9                    $167.4 (38.85%)
All Reports                                 1,176                  $4,055.9                                  N/A
 1
  This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
  and noncompliance with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense
  Contract Management Agency, and TRICARE. Contract audit followup is reported in accordance with DoD
  Directive 7640.2, “Policy for Followup on Contract Audit Reports.” Because of limited time between availability of
  the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.
 2
   These reports are being processed within the time frames established by OMB Circular A-50, “Audit Followup,”
  and DoD Directive 7640.2 as described in footnotes 3 and 4 below.
 3
   OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)
  within 6 months after report issuance.
 4
   DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
  issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
  negotiates a settlement with contractor, or the report is superseded.
 5
   Of the 144 reports in litigation, 24 are under criminal investigation.
 6Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
 7
   N/A (not applicable)




                                                          57
                                                Semiannual Report for Transmission to the Congress




              Waivers of Advisory and Assistance Service Contracts

A review is made of each waiver granted by the Department for advisory and assistance
services contracts related to testing support. This review is required by Section 802, Defense
Authorization Act for Fiscal Year 1990.

The Department made no waivers during the period and therrefore, no reviews were made by
the OIG.




                                               58
If you suspect Fraud, Waste, Abuse, or Mismanagement
   in the Department of Defense, please contact us at:

                      Hotline@dodig.osd.mil

                                    or

                   www.dodig.osd.mil/hotline

                                 or call:

                            800-424-9098




 The Hotline is available 24 hours per day. The caller can remain anonymous.
              If you prefer, you may send written complaints to:

                          The Defense Hotline
                             The Pentagon
                       Washington, D.C. 20301-1900
